NO. ____________

IN THE
SUPREME COURT
OF THE UNITED STATES
CHIRON SHARROL FRANCIS,
Petitioner
vs.
THE STATE OF TEXAS,
Respondent

On Petition For Writ of Certiorari to the
Fourteenth Court of Appeals at Houston, Texas

PETITION FOR WRIT OF CERTIORARI
Leonard Thomas Bradt
Texas Bar No. 02841600
14090 Southwest Freeway,
Suite 300
Sugar Land, Texas 77478
(281) 201-0700
Fax: (281) 1202
ltbradt@flash.net
Counsel of record for
Joshua Jermaine Nelson

Tracy Dee Cluck
Texas Bar No. 00787254
12600 Hill County Boulevard,
Suite R-275
Austin, Texas 78738
(512) 329-2615
Fax: (512) 329-2604
tracy@tracyclucklawyer.com
Of Counsel

NO. ____________

IN THE
SUPREME COURT
OF THE UNITED STATES
CHIRON SHARROL FRANCIS,
Petitioner
vs.
THE STATE OF TEXAS,
Respondent

On Petition For Writ of Certiorari to the
Fourteenth Court of Appeals at Houston, Texas

PETITION FOR WRIT OF CERTIORARI
(Corrected)

Leonard Thomas Bradt
Texas Bar No. 02841600
14090 Southwest Freeway,
Suite 300
Sugar Land, Texas 77478
(281) 201-0700
Fax: (281) 1202
ltbradt@flash.net
Counsel of record for
Chiron Sharrol Francis

Tracy Dee Cluck
Texas Bar No. 00787254
12600 Hill County Boulevard,
Suite R-275
Austin, Texas 78738
(512) 329-2615
Fax: (512) 329-2604
tracy@tracyclucklawyer.com
Of Counsel

QUESTIONS PRESENTED
1.
The police violate State criminal law, Federal and State regulations, and their
own procedures and policies in disposing of and failing to preserve evidence. Does this
conduct show bad faith on the part of the police; and, under these circumstances, is the
defendant denied Due Process of law and a fair trial? (Implicating Arizona v.
Youngblood, 488 U.S. 51 (1988))
2.
When the State produces evidence to the defense but objects to its use during
trial because there is no one who can authenticate it, are a defendant’s rights under
the confrontation clause of the Sixth Amendment, substantive Due Process rights and
a defendant’s right to present a complete defense violated? (Implicating Chambers v.
Mississippi, 410 U.S. 284, 294 (1972) and Crane v. Kentucky, 476 U.S. 683, 690 (1986))
3.
Investigating officers place a KC ballcap and an LSU ballcap in the Evidence
Room, as evidence found at the crime scene. The KC ballcap is seen in the crime scene
photographs atop the dead driver’s head. The LSU ballcap is not visible in the crime
scene photographs but is documented by the investigating officers as having been atop
the driver’s head, under the KC ballcap. The KC ballcap has one bullet hole in it,
whereas the LSU ballcap has two bullet holes in it—neither of which lines up with the
hole in the KC ballcap. These two ballcaps were crucial to showing how badly the
crime scene and evidence were handled by the police. But the defendant was denied
the use of the LSU ballcap during trial because there were no photographs showing it
at the scene of the crime. Did the exclusion of the LSU ballcap deny the defendant his
rights under the confrontation clause of the Sixth Amendment, a defendant’s right to
a fair trial under the Fourteenth Amendment and a defendant’s right to present a
complete defense? (Implicating Chambers v. Mississippi, 410 U.S. 284, 294 (1972) and
Crane v. Kentucky, 476 U.S. 683, 690 (1986))

i

PARTIES TO THE PROCEEDING
Chiron Sharrol Francis

–

Petitioner

State of Texas

–

Respondent

RULE 29.6 STATEMENT
Petitioner is not a corporate entity.

ii

TABLE OF CONTENTS
Page

QUESTIONS PRESENTED. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL PROVISIONS . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
BACKGROUND FACTS AND PROCEDURAL HISTORY. . . . . . . . . . . 5
STANDARD OF REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . 6
The police violate State criminal law, Federal and State regulations,
and their own procedures and policies in disposing of and failing to
preserve evidence. Under these circumstances, the Petitioner
should be held to have been denied Due Process of law and a fair trial.
..................................................... 6
iii

BACKGROUND FACTS: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
DENIAL OF DUE PROCESS: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Bad Faith: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
STATUTES AT ISSUE: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Holdings Below: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
IMPORTANCE OF CASE: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
When the State produces evidence to the defense but objects to its
use during trial because there is no one who can authenticate it, a
defendant’s rights under the confrontation clause of the Sixth
Amendment and a defendant’s right to present a complete defense
are violated.
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
CONCLUSION: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
IMPORTANCE OF CASE: . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Officers document a LSU ballcap (with two bullet holes in it) as
having been found atop the decedent’s head and under a KC ballcap
(with only one hole in it), and log both into the Property Room. Does
it deny the defendant a fair trial and the right to present a defense
when he is denied the right to show the jury the LSU ballcap
because there is no photograph showing the LSU ballcap at the
crime scene? Stated another way, did the exclusion of the LSU
ballcap deny the defendant his rights under the confrontation clause
of the Sixth Amendment and a defendant’s right to a fair trial under
the Fourteenth Amendment? (Implicating Chambers v. Mississippi,
410 U.S. 284, 294 (1972) and Crane v. Kentucky, 476 U.S. 683, 690
(1986))
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
CONCLUSION AND PRAYER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

iv

TABLE OF AUTHORITIES
Page
FEDERAL CASES
Alford v. United States, 282 U.S. 687 (1931) . . . . . . .
Arizona v. Youngblood, 488 U.S. 51 (1988) . . . . . . . .
Barber v. Page, 390 U.S. 719 (1968) . . . . . . . . . . . . .
Brady v. Maryland, 373 U.S. 83 (1963) . . . . . . . . . .
California v. Trombetta, 467 U.S. 479 (1984) . . . . . .
Chambers v. Mississippi, 410 U.S. 284 (1972) . . . . . .
Crane v. Kentucky, 476 U.S. 683 (1986) . . . . . . . . . .
Killian v. United States, 368 U.S. 231 (1961) . . . . . .
Pointer v. State of Texas, 380 U.S. 400 (1965) . . . . . .
Salve Regina College v. Russell, 499 U.S. 225 (1991) .
United States v. Lee, 502 F.3d 691 (7th Cir.2007) . . .
United States v. Turner, 591 F.3d 928 (7th Cir.2010) .

. . . . . . . . . . . . . . . . . . . 23
. . . . . . . . . . . . i, 3, 13, 15
. . . . . . . . . . . . . . . . . . . 23
. . . . . . . . . . . . . 13, 18, 20
. . . . . . . . . . . . . . . . . . . 10
. . . . . . . . . . . . . i, 4, 5, 21
. . . . . . . . . . . . . i, 4, 5, 21
. . . . . . . . . . . . . . . . . . . 11
. . . . . . . . . . . . . . . . . . . 23
....................6
. . . . . . . . . . . . . . . . . . . 19
. . . . . . . . . . . . . . . . . . . 19

STATE CASES
Farr v. Wright, 833 S.W.2d 597 (Tex. App. – Corpus Christi 1992, writ denied)

. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Jackson v. State, 968 S.W.2d 495 (Tex.App.–Texarkana 1998, pet. ref’d). . . . . . . 19
Kansas City, M. & O. Ry. Co. v. Young, 50 Tex. Civ. App. 610, 111 S.W. 764 (1908)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Lagrone v. State, 942 S.W.2d 602 (Tex.Crim.App.1997) . . . . . . . . . . . . . . . . . . 19
National State Bank of Mt. Pleasant, Iowa, v. Ricketts, 152 S.W. 646 (Tex. Civ. App.
Amarillo 1912) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Nixon v. Mr. Property Management Co., 690 S.W.2d 546 (Tex.1985) . . . . . . . . . . 14
Stokes v. Puckett, 972 S.W.2d 921 (Tex. App.–Beaumont 1998) . . . . . . . . . . . . . 20

STATE STATUTES
Art. 39.14, TEX. CODE CRIM. PRO. . . . .
Rule 901(a), TEX. R. EVID. . . . . . . . . .
Rule 402, TEX. R. EVID. . . . . . . . . . . .
Texas Penal Code § 37.01 (2)(A) (2011)

. . . . . . . . . . . . . . . . . . . . . . . . . . 18, 20
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
..............................2
v

Texas Penal Code § 37.09 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 14, 16, 17
Texas Penal Code § 37.10 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 14, 16

STATE REGULATIONS
30 TAC § 326.3 (23) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
30 TAC § 330.3(148)(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

CONSTITUTIONS
U.S. Const. Amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 5, 21, 25
U.S. Const. Amend. XIV. . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-5, 9, 20, 21, 25

OTHER AUTHORITIES
Black’s Law Dictionary (11TH ed. 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

vi

TO THE HONORABLE SUPREME COURT OF THE UNITED STATES:
Petitioner, Chiron Sharrol Francis, respectfully petitions for a writ of certiorari
to review the judgment of the Fourteenth Court of Appeals at Houston, Texas.
OPINIONS BELOW
The Texas Court of Criminal Appeals refused a Petition for Discretionary
Review without written opinion. The notice of that refusal is Appendix 1. Petitioner
did not move for rehearing of that refusal.

The judgment and opinion of the

Fourteenth Court of Appeals at Houston, Texas in Docket No. 14-17-00958-CR,
affirming Petitioner’s conviction, is unpublished and is Appendix 2. The Motion for
Rehearing was denied by Order, Appendix 3. The Motion for Rehearing en Banc was
denied by Order, Appendix 4. The trial court’s Judgment of conviction is Appendix 5.
STATEMENT OF JURISDICTION
The Texas Court of Criminal Appeals’ refusal of the petition for discretionary
review of the opinion of the Fourteenth Court of Appeals was issued on July 22, 2020.
This Court has jurisdiction pursuant to 28 U.S.C. § 1257(a). Appendix 1. This petition
is timely filed.
RELEVANT CONSTITUTIONAL PROVISIONS
The Sixth Amendment to the United States Constitution provides as follows:
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause
of the accusation; to be confronted with the witnesses against him; to
have compulsory process for obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defence. U.S. Const. Amend. VI

1

The Fourteenth Amendment to the United States Constitution provides, in
relevant part, as follows:
... No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection
of the laws. U.S. Const. Amend. XIV
RELEVANT STATUTORY PROVISIONS
Texas Penal Code § 37.09 (2011), provides in relevant part, as follows:
(a) A person commits an offense if, knowing that an investigation or
official proceeding is pending or in progress, he:
(1) alters, destroys, or conceals any record, document, or thing with intent
to impair its verity, legibility, or availability as evidence in the
investigation or official proceeding; or
(2) makes, presents, or uses any record, document, or thing with
knowledge of its falsity and with intent to affect the course or outcome of
the investigation or official proceeding.
....
(d) A person commits an offense if the person:
(1) knowing that an offense has been committed, alters, destroys, or
conceals any record, document, or thing with intent to impair its verity,
legibility, or availability as evidence in any subsequent investigation of
or official proceeding related to the offense; ....
Texas Penal Code § 37.10 (2011), provides in relevant part, as follows:
(a) A person commits an offense if he:
(1) knowingly makes a false entry in, or false alteration of, a
governmental record....1
30 TAC § 326.3 (23), provides in relevant part, as follows:
Medical waste--Treated and untreated special waste from health

1

Governmental record means anything belonging to, received by, or kept
by government for information, including a court record. Texas Penal Code § 37.01
(2)(A) (2011).

2

care-related facilities that is comprised of animal waste, bulk blood, bulk
human blood, bulk human body fluids, microbiological waste, pathological
waste, and sharps as those terms are defined in 25 TAC §1.132 (relating
to Definitions) from the sources specified in 25 TAC §1.134 (relating to
Application), as well as regulated medical waste as defined in 49 Code of
Federal Regulations §173.134(a)(5), except that the term does not include
medical waste produced on a farm or ranch as defined in 34 TAC §3.296(f)
(relating to Agriculture, Animal Life, Feed, Seed, Plants, and Fertilizer),
nor does the term include artificial, nonhuman materials removed from
a patient and requested by the patient, including, but not limited to,
orthopedic devices and breast implants. ....
30 TAC § 330.3(148)(c), provides in relevant part, as follows:
Special waste--Any solid waste or combination of solid wastes that
because of its quantity, concentration, physical or chemical
characteristics, or biological properties requires special handling and
disposal to protect the human health or the environment. If improperly
handled, transported, stored, processed, or disposed of or otherwise
managed, it may pose a present or potential danger to the human health
or the environment. Special wastes are: ...
(C) untreated medical waste ....
STATEMENT OF THE CASE
Introduction
This case presents several inter-related and very important questions for review.
First, in Arizona v. Youngblood, 488 U.S. 51, 58 (1988), this Court held that “unless a
criminal defendant can show bad faith on the part of the police, failure to preserve
potentially useful evidence does not constitute a denial of due process of law.” Here,
the police violated State criminal law, Federal and State regulations, and their own
procedures in disposing of and failing to preserve substantial amounts of evidence. Is
that conduct bad faith, such that the defendant is denied due process of law and a fair
trial? Petitioner raised this question in the First Issue of his Brief at the Fourteenth

3

Court of Appeals, which denied relief on this ground, holding that bad faith was not
shown—while ignoring many of the pieces of evidence that disappeared.
Second, when the State produces evidence to the defense but objects to its use
during trial because there is no one who can authenticate it, are a defendant’s rights
under the confrontation clause of the Sixth Amendment and substantive Due Process
rights violated? And in that situation, is a defendant’s right to present a complete
defense violated per Chambers v. Mississippi, 410 U.S. 284, 294 (1972) and Crane v.
Kentucky, 476 U.S. 683, 690 (1986)? Petitioner raised this in his Fifth and Seventh
Issues in his Brief at the Fourteenth Court of Appeals, which denied relief on these
grounds.
Third, in the Current Information Report, it states the “KC ballcap was found
atop the LSU ballcap, both on Schwartz’s head.”2 The investigating officers placed a
KC ballcap and an LSU ballcap in the Evidence Room, as evidence taken from the
crime scene. The KC ballcap is seen in the crime scene photographs atop the dead
driver’s head. The LSU ballcap is not visible in the crime scene photographs but is
documented by the investigating officers as having been atop the driver’s head, under
the KC ballcap. The KC ballcap has one bullet hole in it, whereas the LSU ballcap has
two bullet holes in it—neither of which lines up with the hole in the KC ballcap. The
LSU ballcap tested negative for the presence of human blood and DNA. These two
ballcaps were crucial to showing how badly the crime scene and evidence were handled

2

CR.1, p. 212.

4

by the police. But the defendant was denied the use of the LSU ballcap during trial
because there were no photographs showing it at the scene of the crime. Did the
exclusion of the LSU ballcap deny the defendant his rights under the confrontation
clause of the Sixth Amendment, a defendant’s right to a fair trial under the Fourteenth
Amendment and a defendant’s right to present a complete defense? (Implicating
Chambers v. Mississippi, 410 U.S. 284, 294 (1972) and Crane v. Kentucky, 476 U.S.
683, 690 (1986))
BACKGROUND FACTS AND PROCEDURAL HISTORY
In April, 1994, two young White drug dealers were murdered in Houston, during
an attempt to purchase 60 lbs. of Mexican marijuana. They were shot inside a Mazda
automobile, which was filled with many different items—none of which were dusted
for fingerprints or tested for DNA. Photos taken at the scene show the car as having
brain matter and copious amounts of blood everywhere, literally streaming out onto
the street.
The crime was investigated by the Houston Police Department. Most of the
items shown in the few crime scene and evidence-stall photos were not kept, or even
recorded as having been in the car. A week after the murders, and without the blood
and brain matter having been remediated, the car was released to a stranger to the
title—on God knows what paperwork—in violation of HPD procedures. And what
happened to many of the pieces of evidence in the car is unknown.
No attempt to talk to or interview Petitioner was made. In August, 1994, an
arrest warrant was issued for Petitioner but not served on him.

5

In July, 2014, Petitioner was charged with the homicides by information.
In November, 2014, an application was submitted to the Bolivarian Republic of
Venezuela to get Petitioner extradited. In June, 2015, Petitioner was indicted for the
murders; and he was extradited from Venezuela.
In November, 2017, Petitioner was tried and a jury convicted. A timely appeal
was taken to the 14TH Court of Appeals in Houston, which affirmed the convictions in
a Memorandum Opinion. (Appendix 2) Timely motions for rehearing and for rehearing
en banc were filed and denied without written opinion. (Appendix 3 and 4) On July 22,
2020, without written opinion, the Texas Court of Criminal Appeals denied
discretionary review. (Appendix 1) This timely Petition results.
STANDARD OF REVIEW
Because this petition involves the interpretation of federal constitutional law
and prior holdings of this Court, the standard of review is de novo.3
REASONS FOR GRANTING THE WRIT
The police violate State criminal law, Federal and State
regulations, and their own procedures and policies in disposing
of and failing to preserve evidence. Under these circumstances,
the Petitioner should be held to have been denied Due Process of
law and a fair trial.
BACKGROUND FACTS:
During a drug deal gone bad, the decedents were shot inside a two-door Mazda
RX-9. The Current Information Report states: “Based on the evidence at the scene, it

3

See Salve Regina College v. Russell, 499 U.S. 225, 231-232 (1991).

6

would appear that the suspect was seated inside the Mazda in the rear seat when
shooting the complainants.”4
The interior of the car was awash in blood, with blood streaming from the car
onto the street. The photographs taken5 show, inter alia, the backseat of the Mazda
with a shell casing6 and a red-and-white umbrella;7 the interior of the Mazda, showing
blood stains and a Pink Floyd seat cushion;8 driver’s car door and steering column with
bullet holes;9 passenger side of car with a black case under the seat;10 backseat of the
car with a Cypress Hill ballcap, a red CaseLogic case, an umbrella and a shell casing;11
trunk of car with a Marlboro bag, UT backpack, black backpack and white laundry
basket;12 headliner of car with blood or other stains;13 car jack compartment showing

4

RR-33, pp.26-235.

5

Some were taken at the location of the shootings; others in the HPD
Evidence Stall; some in a motel room and some when a decedent’s safe deposit box was
opened.
6

RR-29,p.5.

7

RR-29,p.6.

8

RR-29,p.7-8.

9

RR-29,p.10.

10

RR-29,p.15.

11

RR-29,p.19.

12

RR-29,p.20.

13

RR-29,p.22.

7

a bottle;14 and a Harley Davidson wallet.15 The photos show more bullet casings than
were placed into the Evidence Room.
Most of these items in or near the car, are not documented in any of the police
records, much less kept. None were fingerprinted. None were tested for DNA—even
though the Cypress Hill ballcap, the CaseLogic case and the car seats would have had
touch DNA to show who was wearing it or was sitting in the back seat. Fingerprints
were not taken from any surface in the car or from the car doors. There was no
attempt to determine the actual trajectories of the bullets fired in or into the car.16
There was not even a testing for gunshot residue in the car—which would have shown
whether a gun was fired in the car.
On pages 2.013-2.014 of the Current Information Report (Offense Report), it
states: “The #2 complainant (driver) was clad in a pair of acid wash jeans, a white and
green colored pullover shirt, red and blue “KC” ballcap which was atop a purple and
gold “LSU” ballcap, both atop his head.”(emphasis added) The KC ballcap is
clearly seen in the photos taken at the scene but the LSU ballcap is not. According to
the Current Information Report, the KC and LSU ballcaps were collected on April 11,

14

RR-29,p.26.

15

RR-29,p.73.

16

In 1994, this would have been done by inserting wooden rods into the
bullet holes and then photographing those rods. Without this information, it is
impossible to definitively know where the gunshots came from.

8

1994 but not placed in the drying room until May 5, 1994.17 After drying, both were
placed into the Property Room.
One

week

after

the

shootings—in

violation

of

their

policies

and

procedures—HPD released the Mazda RX-9 to a stranger to the title, on God-knows
what paperwork, without any record to show that the blood and brain matter had been
remediated.
The LSU ballcap has 2 bullet holes in it, neither of which lines up with the one
bullet hole in the KC ballcap or with the bullet holes in the driver’s head. And, when
tested, the blood on the LSU ballcap was not found to be human blood not was human
DNA found on it.18
With respect to the LSU ballcap, the State’s explanation for the absence of
human blood (per the Hematrace test), and the absence of human DNA, was
degradation due to the time and conditions in storage. But the KC ballcap, which was
stored for the same length of time and in the same conditions, was shown to have
human DNA on it but not human blood.
DENIAL OF DUE PROCESS:
The loss or destruction of exculpatory evidence can deny a criminal defendant
due process of law under the Fourteenth Amendment.19 Therefore, the State has a duty

17

RR-7, p. 22.

18

RR-7, p. 79; Defendant’s Exhibit 89.

19

U.S. Const. amend. XIV.

9

to preserve exculpatory evidence.20 However, this duty is limited to evidence that (1)
possesses an exculpatory value that was apparent before the evidence was destroyed
and (2) is of such a nature that the defendant would be unable to obtain comparable
evidence by other reasonably available means.21
As noted in the Current Information Report, it was the investigating officer’s
opinion that the shooter was in the back seat of the car and that the first shots came
from there.22 As the Cypress Hill ballcap, the red-and-white umbrella and CaseLogic
CD case were in the back of the car, they would have had touch DNA that could
exonerate Petitioner by showing who else was in the back seat. The seats of the Mazda
would also have had touch DNA on them, to show who was in the back seat of the car.
The car door would have fingerprints to show who got out. This exculpatory value was
known to the investigating officers.
As noted by this Court, “whatever duty the Constitution imposes on the States
to preserve evidence, that duty must be limited to evidence that might be expected to
play a significant role in the suspect’s defense.”23 Petitioner would argue that, at the
very least, the Mazda, Cypress Hill ballcap, the red-and-white umbrella and CaseLogic
case were such evidence.

20

California v. Trombetta, 467 U.S. 479, 488–89 (1984).

21

Trombetta, 467 U.S. at 488–89.

22

RR.17, pp.37-38.

23

Trombetta, 467 U.S. at 488.

10

Assuming, without conceding, that those items were not that type of evidence,
then – as to the evidence not preserved – it must be shown that the officers were acting
“in good faith and in accord with their normal practice”24 for it not to be bad faith to
have failed to preserve them. Or that the same information was available from other
sources.25 Obviously, none of the disposed of evidence was available from other
sources.
More importantly, there is no evidence26 that the HPD officers were acting in
accord with their normal practice, or in good faith, when they took only 82 photos;27
when they drove a police car through the taped-off crime scene; when they failed to
inventory, much less keep, many pieces of evidence or their contents;28 when they failed
to photograph relevant pieces of evidence;29 when they photographed totally irrelevant

24

Killian v. United States, 368 U.S. 231, 242 (1961).

25

Id.

26

Entire CR and RR.

27

Defendant’s #1–#82. Three were of a motel room where the decedents had
been earlier in the day; fifteen were of the inside of the car and five were of the exterior
of the car – taken in the Evidence Stall; one was of the contents of the center arm rest;
two were jars of marijuana taken from the trunk; twenty-three were of the contents of
the driver’s safe deposit box; thirty-one were taken at the scene of crime; and four were
at autopsy.
28

Examples of these are a red-and-white umbrella, a CaseLogic CD case, a
black case and the Cypress Hill ballcap seen in photos of the car interior.
29

This would include what appears to be a Houston Police Officers
Association decal on the front windshield.

11

evidence;30 when they planted the LSU ballcap;31 when they disposed of the crime scene
(Mazda) on God-knows what paperwork, to a stranger to the title,32 without having
remediated the biohazards contained within the car and in violation of the policies and
procedures; when they then failed to preserve that paperwork; etc.. There was no
testimony that the HPD officers acted in good faith, or in accord with their normal
practices in investigating these crimes. This precludes this Court from drawing any
conclusion that proper procedure was, in fact, followed. But the 14TH Court of Appeals
ignored this in holding that Petitioner had not shown bad faith.
Not only was there no evidence that proper procedure was actually followed,
there was evidence that shows that proper procedure was not followed in the collection
of, documentation of and preservation of evidence.
Further, the HPD officers “investigating” the homicides went out of their way
to tamper with the evidence and prevent its availability for Petitioner’s use in
defending the allegations against him. Again, the 14TH Court of Appeals ignored this
in ruling against Petitioner.

30

Such as a BIC lighter found in the grass, 20+ feet from the car – a lighter
that was never fingerprinted.
31

Petitioner says planted because it is not seen in any of the crime scene
photos, its two bullet holes do not line up with the one bullet hole in the KC ballcap
that is clearly seen and, when tested, it came back negative for the presence of human
blood. If it was, in fact, found at the crime scene as described in the Current
Information Report, then, as Desi used to say, “Lucy, you’ve got some ‘splaining to do.”
32

Procedure was that a car was to be released only to the owner of record
(in this case the dead driver) or on a power of attorney executed by the owner of record.

12

BAD FAITH:
It will never be known whether the missing evidence would exonerate Petitioner,
therefore the duty to preserve cannot be established. If the duty to preserve is not
established, one must then turn to the standard articulated by this Court in Arizona
v. Youngblood, 488 U.S. 51 (1988). In Youngblood, this Court held that a defendant
must show bad faith on the part of the police in order for a court to find that the
destruction of potentially useful evidence is a denial of due process. Id. at 58.
Following Brady, the Court reasoned that if the destroyed evidence is material and
exculpatory, then whether the evidence was destroyed in good or bad faith is
irrelevant.33 But, if the destroyed evidence is merely “potentially useful,” the accused
must show that the State acted in bad faith when it failed to preserve the evidence in
order to show a violation of due process of law.34 Unfortunately, this Court has never
defined or delimited what constitutes that “bad faith.”
The “missing” evidence was definitely material and potentially useful in that it
could show who else was in the car, who shot from where, etc..
Because it was potentially useful and the State failed to preserve it, the question
becomes—did the HPD act in bad faith in not preserving and disposing of the evidence?
Separate and apart from the failure to follow proper procedure, how much more bad
faith need an accused show than violations of several felony Penal Code sections

33

34

Id. at 57 (citing Brady v. Maryland, 373 U.S. 83, 87 (1963)).
Id. at 58.

13

relating to tampering with evidence or making false entries in governmental records?
Not to mention the outright fabrication of evidence.
Stated another way, when the government’s destruction of evidence constitutes
a criminal act, as here, it should be bad faith, per se.35 And this Court should so hold.
Regrettably, the 14TH Court of Appeals found no crimes were committed,
attributing the mention of the LSU ballcap to inconsistencies, etc.. This should not be
brushed aside so easily.
STATUTES AT ISSUE:
Texas Penal Code § 37.09(a)(1), provides, in relevant part, that a person commits
an offense if a person, knowing that an offense has been committed, destroys, or
conceals any thing with intent to impair its availability as evidence in any subsequent
investigation of or official proceeding related to the offense. Texas Penal Code §
37.09(a)(2), provides in relevant part, a person commits an offense if he makes,
presents, or uses any record or thing with knowledge of its falsity and with intent to
affect the course or outcome of the investigation or official proceeding.
Texas Penal Code § 37.10, provides in relevant part, that a person commits an
offense if he knowingly makes a false entry in a governmental record.

35

In many ways, this per se bad faith is analogous to negligence per se. To
establish a negligence per se cause of action, a plaintiff must prove: (1) the defendant’s
act or omission is in violation of a statute or ordinance; (2) the injured person was
within the class of persons which the ordinance was designed to protect; and (3) the
defendant’s act or omission proximately caused the injury. See Nixon v. Mr. Property
Management Co., 690 S.W.2d 546, 549 (Tex.1985). Here the HPD’s actions were in
violation of the Penal Code, Chiron is within the class of persons which the statute is
designed to protect and the HPD’s actions caused the loss of the evidence.

14

HOLDINGS BELOW:
In denying relief, the 14TH Court of Appeals did not address the many, many
pieces of evidence that disappeared without even being listed in the Current
Information Report, e.g.: the Cypress Hill ballcap, the CaseLogic case, the red-andwhite umbrella, the UT backpack, the black case, the extra shell casing, etc., much less
kept by the HPD. It also did not address whether the failure to keep those pieces of
evidence was done in bad faith, as required by Arizona v. Youngblood, supra.
The Court completely ignored the non-human blood on both ballcaps which could
have been the result of animal (chicken?) blood being thrown on the driver as part of
a curse from the Mexican drug purveyors.36
With respect to the LSU ballcap, the 14TH Court of Appeals held: “There is an
inconsistency between the report and the evidence adduced but there is no evidence
officers planted the LSU cap in the car. The fact that the LSU cap had two bullet holes
that did not align with the single bullet hole in the KC cap is evidence the CIR report
is incorrect.”37 And in footnote 8, it held: “The State’s case was not based upon the LSU

36

Santeria is one such form of witchcraft / curse associated with the
Mexican drug trade. See, e.g.,
https://tulsaworld.com/archive/the-demons-curse-cult-style-slayings-no-different-tha
n-drug-murders-in-our-streets/article_b1f57b1c-3eca-5c8e-84c3-738df19b6032.html
(Last accessed December 11, 2020)
37

This “incorrectness” should not be treated so lightly. Seven different
officers were at the crime scene. CSU Officer Burke made the entries about the LSU
ballcap in the Current Information Report; his entries were reviewed by a supervisor
(EG, employee #025810); Officer Kennedy removed the LSU ballcap from the Drying
Room and placed it in the Property Room.

15

cap or any forensic evidence derived therefrom.”
But the 14TH Court of Appeals did not properly analyze the significance of the
LSU ballcap which is, either it was or it was not found atop the driver’s head, under
the KC ballcap. If the LSU ballcap really was found atop the driver’s head, under the
KC ballcap, then the “magic bullet” that killed Kennedy and wounded Connally
apparently resurfaced 30+ years later, accompanied by non-human blood. And as part
of Petitioner’s right to present a defense and to a fair trial, he should have been
allowed to introduce the LSU ballcap and ask the State to explain the re-appearance
of the “magic bullet” together with the non-human blood and lack of human DNA.
But if the LSU ballcap was not actually found at the crime scene, as reflected
in the Current Information Report, then the officers planted the ballcap and violated
Texas Penal Code § 37.09(a)(2)38 and § 37.10.39 They would have thereby committed
crimes when they made the Current Information Report show that the LSU ballcap
was found at the crime scene atop the driver’s head, under the KC ballcap.
Further, in that situation, when the officers logged the LSU ballcap into the
Property Room, they again violated Texas Penal Code § 37.09(a)(2) – another third
degree felony. And, an essential element of Petitioner’s right to a fair trial was that
he should have been allowed to show the jury that the police committed crimes during

38

A person commits an offense if the person makes any record or document,
with knowledge of its falsity. This is a felony of the third degree.
39

A person commits an offense if he knowingly makes a false entry in a
governmental record. This is a Class A misdemeanor.

16

their investigation of the murders, beginning with planting the LSU ballcap and
recording its “presence” in the Current Information Report.
The 14TH Court’s holdings regarding the car are even worse. The 14TH Court
concluded “evidence from inside the car would not have exculpated him. The release
of the car does not establish officers destroyed evidence with intent to impair its
availability as evidence in the investigation. Accordingly, the record does not reflect an
offense was committed.” In footnote 9, it held: “Furthermore, the State’s case was not
based upon any forensic evidence taken from the car.”
But forensic evidence is evidence used in court.40 And the driver’s body, which
was in the car, was used in the State’s case. In that regard, footnote 9 is mistaken.
With all of this, the unanswered question is, why would the police release the
car in violation of their procedures and policies – without remediating any of the
medical waste (blood and brain matter) in the car – if it was not to impair its
availability as evidence in the investigation? For an offense to have been committed,
all that was required was that the officer(s) have destroyed, or concealed the car with
intent to impair its availability as evidence in the investigation or official proceeding.41
Allowing the car to be released to a stranger to the title, without the proper paperwork,
in violation of HPD’s procedures and policy, caused it to disappear, effectively
destroying the car, shows that intent. That is a prima facie violation of the statute.

40

Source: Black’s Law Dictionary (11TH ed. 2019).

41

Texas Penal Code § 37.09(a)(1).

17

The 14TH Court of Appeals erred when it held otherwise.
Regardless of whether releasing the car was a criminal offense, the 14TH Court
of Appeals erred when it upheld the trial court’s holding that Petitioner had presented
only supposition and speculation as to whether the police acted in bad faith in
disposing of the car. Simply put, rules are meant to be followed. So are official policies
and procedures. And when they aren’t, someone needs to explain why.
IMPORTANCE OF CASE:
This Court has never delimited what constitutes bad faith when the police fail
to preserve and dispose of potentially useful evidence. The facts of this case show that
this Court’s guidance in that area is sorely needed.
When the State produces evidence to the defense but objects to
its use during trial because there is no one who can authenticate
it, a defendant’s rights under the confrontation clause of the
Sixth Amendment and a defendant’s right to present a complete
defense are violated.
Time and again, the State objected to the introduction into evidence of items
that it had produced pursuant to Brady or Art. 39.14, TEX. CODE CRIM. PRO.,42 because
there was no one to authenticate or sponsor or prove up the evidence. Time and again,
the court sustained the objections.43
Requiring the State to prove up the chain of custody before evidence is
introduced is a right that belongs to the defendant—not the State. Yet a challenge to

42

See, e.g., RR-19,p.23-25;RR-18,pp.103-105.

43

Id.

18

chain of custody ordinarily goes to the weight rather than the admissibility of the
evidence. E.g., United States v. Turner, 591 F.3d 928, 934–35 (7th Cir.2010); United
States v. Lee, 502 F.3d 691, 697–98 (7th Cir.2007).
When physical evidence does not have unique characteristics, a chain of custody
may be required to prove that the item presented in trial is the same one involved in
the events at issue.44 The chain of custody is conclusively established if an officer
testifies that the item was seized, tagged, marked, placed in storage, and retrieved for
trial.45
Further, Rule 901(a), TEX. R. EVID., provides that to “satisfy the requirement of
authenticating or identifying an item of evidence, the proponent must produce evidence
sufficient to support a finding that the item is what the proponent claims it is.” The
crime scene photos and the Current Information Report should be such sufficient
evidence.
And relevant evidence is admissible, except as otherwise provided by the United
States or Texas Constitution, a statute, the Texas Rules of Evidence, or other rules
prescribed under statutory authority.46 Generally, if a fact offered in evidence is not
violative of any established principle that renders it incompetent and has any

44

Jackson v. State, 968 S.W.2d 495, 500 (Tex.App.–Texarkana 1998, pet.

45

Lagrone v. State, 942 S.W.2d 602, 617 (Tex.Crim.App.1997).

46

Tex. R. Evid. 402.

ref’d).

19

reasonable tendency to raise a material inference in the case, it must be admitted.47
Generally, all relevant evidence is admissible, and a trial court errs in excluding
relevant evidence unless some rule or principle requires its exclusion.48 Furthermore,
the rule or principle under which the court excludes relevant evidence must be
supported by good cause and solid policy reasons.49
CONCLUSION:
The trial court denied Petitioner the use of evidence that the State collected and
produced pursuant to Brady or Art. 39.14, TEX. CODE CRIM. PRO..

This denied

Petitioner a fair trial and his right to present a defense in violation of his Sixth
Amendment and Fourteenth Amendment rights. And it denied Petitioner substantive
Due Process when he was prohibited from using evidence produced by the State,
pursuant to Brady – because there was no one who could sponsor or authenticate that
evidence or because the evidence was not seen in any photos from the crime scene.
IMPORTANCE OF CASE:
The number of cold cases that are being brought to trial is increasing on an
almost daily basis. Those defendants should not be denied the use of evidence

47

Kansas City, M. & O. Ry. Co. v. Young, 50 Tex. Civ. App. 610, 111 S.W.
764, 765 (1908); National State Bank of Mt. Pleasant, Iowa, v. Ricketts, 152 S.W. 646
(Tex. Civ. App. Amarillo 1912) (stating that evidence is admissible when it meets the
legal requirements as to competency, materiality, and relevancy).
48

Stokes v. Puckett, 972 S.W.2d 921, 926 (Tex. App.–Beaumont 1998).

49

Farr v. Wright, 833 S.W.2d 597, 599 (Tex. App. – Corpus Christi 1992,

writ denied).

20

produced by the State merely because there is no one who can sponsor same. Such a
requirement denies them a fair trial and the right to present a defense.
Officers document a LSU ballcap (with two bullet holes in it) as
having been found atop the decedent’s head and under a KC
ballcap (with only one hole in it), and log both into the Property
Room. Does it deny the defendant a fair trial and the right to
present a defense when he is denied the right to show the jury
the LSU ballcap because there is no photograph showing the LSU
ballcap at the crime scene? Stated another way, did the
exclusion of the LSU ballcap deny the defendant his rights under
the confrontation clause of the Sixth Amendment and a
defendant’s right to a fair trial under the Fourteenth
Amendment? (Implicating Chambers v. Mississippi, 410 U.S. 284,
294 (1972) and Crane v. Kentucky, 476 U.S. 683, 690 (1986))
Both times Petitioner attempted to use the LSU ballcap as evidence, the State
objected on the ground that the LSU ballcap was not seen in any of the crime scene
photos. Those objections were sustained and Petitioner was not allowed to show it to
the jury, or to cross-examine any witness with it.
According to the Current Information Report, two ballcaps were collected on
April 11, 1994.50 One was an LSU ballcap and one was a KC ballcap.51 The KC and
LSU ballcaps were both referred to in the Current Information Report.
In connection with the Motion to Suppress, HPD Sgt. John Parker was asked by
the State to bring, and he brought two caps, fired shell casings and bullets from the

50

RR-7,p.22.

51

RR-7,p.26.

21

HPD Property Room.52 The KC ballcap is Defendant’s #77;53 and the LSU ballcap is
Defendant’s #7854 from the Motion to Suppress. The ballcaps remained with the Official
Court reporter from the Motion to Suppress through trial.

The KC ballcap is

Defendant’s # 86 and 87 from the trial.
Again, in the Current Information Report, it states the “KC ballcap was found
atop the LSU ballcap, both on Schwartz’s head.”55 The investigating officers placed a
KC ballcap and an LSU ballcap in the Evidence Room, as evidence taken from the
crime scene. The KC ballcap is seen in the crime scene photographs atop the dead
driver’s head. The LSU ballcap is not visible in the crime scene photographs but is
documented by the investigating officers as having been atop the driver’s head, under
the KC ballcap. The KC ballcap has one bullet hole in it, whereas the LSU ballcap has
two bullet holes in it—neither of which lines up with the hole in the KC ballcap. The
LSU ballcap tested negative for the presence of human blood and DNA. These two
ballcaps were crucial to showing how badly the crime scene, evidence and investigation
were handled by the police.
In addition to being listed in the Current Information Report, and in connection
with Petitioner’s Motion to Suppress, the State asked HPD Sgt. John Parker to bring

52

RR-7,p.19.

53

RR-7,p.27.

54

RR-7,p.28.

55

CR.1, p. 212. Emphasis added.

22

the two caps, fired shell casings and bullets from the HPD Property Room,56 which he
did. That should be held to authenticate the caps or to satisfy the chain of custody,
assuming arguendo, that Petitioner was required to establish same before the caps
could be introduced. If it doesn’t, then the fact that all of the items of evidence that
were excluded are described in the Current Information Report should be held to
satisfy that requirement. This Court should address this.
Whether the LSU ballcap was, or was not seen in the crime scene photos is not
determinative of whether Petitioner had a right to introduce it into evidence to
confront and cross-examine the State’s witnesses on how badly the HPD had
(mis)handled the investigation into the murders.
This Court has repeatedly expressed its belief that “the right of confrontation
and cross-examination is an essential and fundamental requirement for the kind of fair
trial which is this country’s constitutional goal.”57
This Court held that, “Cross-examination of a witness is a matter of right.”58
This Court went on to hold, “The extent of cross-examination with respect to an
appropriate subject of inquiry is within the sound discretion of the trial court. It may
exercise a reasonable judgment in determining when the subject is exhausted.
(citations omitted) But no obligation is imposed on the court, such as that suggested

56

RR-7,p.19.

57

Barber v. Page, 390 U.S. 719, 721 (1968); citing Pointer v. State of Texas,
380 U.S. 400, 405 (1965).
58

Alford v. United States, 282 U.S. 687, 691 (1931).

23

below, to protect a witness from being discredited on cross-examination, short of an
attempted invasion of his constitutional protection from self incrimination, properly
invoked. There is a duty to protect him from questions which go beyond the bonds of
proper cross-examination merely to harass, annoy or humiliate him.”59
A basic element of Petitioner’s right to confrontation and his right to a fair trial,
was to introduce the LSU ballcap, with its 2 bullet holes and non-human blood and no
human DNA, and to then confront and cross-examine all of the State’s witnesses with
the LSU ballcap, its 2 bullet holes and non-human blood, lacking human DNA.
This is especially important in light of the State’s witness in the Motion to
Suppress (Juli Rehfuss) who “explained” that the Hematrace test was unable to
confirm human blood on the KC and LSU ballcaps because of degradation of the
ballcap while stored.60 By DNA testing, they were able to confirm a single human male
source on the KC ballcap but they were unable to confirm same on the LSU ballcap.61
Ms. Rehfuss attributed this to degradation but both ballcaps were stored in the same
room, under the same conditions.
Why one ballcap degraded more than the other was never explained and the jury
never heard any of this because without the LSU ballcap, there was nothing to relate
it to. This severely prejudiced Petitioner’s defense.

59

Id., at 694.

60

RR 8, pp. 101–110.

61

Id.

24

CONCLUSION AND PRAYER
Petitioner prays that this Honorable Court grant certiorari to determine
whether, when the police violate State criminal law, Federal and State regulations,
and their own procedures and policies in disposing of and failing to preserve evidence,
that shows bad faith and, if so, whether the defendant is denied Due Process of law and
a fair trial.
Petitioner also prays that this Honorable Court grant certiorari to determine
whether when the State produces evidence to the defense but objects to its use during
trial because there is no one who can authenticate it, a defendant’s rights under the
confrontation clause of the Sixth Amendment, substantive Due Process rights and a
defendant’s right to present a complete defense are violated.
Petitioner further prays that this Honorable Court grant certiorari to determine
whether when investigating officers document a ballcap as having been found at the
crime scene, in a specific location and place it in the Evidence Room, as evidence from
the crime scene, the defendant may be prohibited from using that ballcap for
confrontation and cross-examination of witness—merely because it is not seen in any
photographs taken at the crime scene—without thereby depriving the defendant of his
right to a fair trial, and his rights under the Confrontation Clause?
Petitioner prays for general relief.

25

Respectfully submitted,

/s/ Leonard Thomas Bradt
____________________________
Leonard Thomas Bradt
14090 Southwest Freeway, Suite 300
Sugar Land, Texas 77478
(281) 201-0700
Fax: (281) 201-1202

Tracy D. Cluck
S.B.O.T. # 00787254
12600 Hill Country Blvd., # R-275
Austin, Texas 78738

(512) 329-2615
Fax: (512) 329-2604
tracy@tracyclucklawyer.com
Of counsel

ltbradt@flash.net
Counsel of record

26

APPENDIXt

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

7/22/2020
COA No. 14-17-00958-CR
FRANCIS, CHIRON SHARROL Tr. Ct. No. 14-DCR-066778
PD-0306-20
On this day, the Appellant's petition for discretionary review has been refused.
Deana Williamson, Clerk
STATE PROSECUTING ATTORNEY
STACEY SOULE
P. O. BOX 13046
AUSTIN, TX 78711
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

7/22/2020
COA No. 14-17-00958-CR
FRANCIS, CHIRON SHARROL Tr. Ct. No. 14-DCR-066778
PD-0306-20
On this day, the Appellant's petition for discretionary review has been refused.
Deana Williamson, Clerk
14TH COURT OF APPEALS CLERK
CHRISTOPHER A. PRINE
301 FANNIN, SUITE 245
HOUSTON, TX 77002-7006
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

7/22/2020
COA No. 14-17-00958-CR
FRANCIS, CHIRON SHARROL Tr. Ct. No. 14-DCR-066778
PD-0306-20
On this day, the Appellant's petition for discretionary review has been refused.
Deana Williamson, Clerk
DISTRICT ATTORNEY FORT BEND COUNTY
301 JACKSON, ROOM 101
RICHMOND, TX 77469
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

7/22/2020
COA No. 14-17-00958-CR
FRANCIS, CHIRON SHARROL Tr. Ct. No. 14-DCR-066778
PD-0306-20
On this day, the Appellant's petition for discretionary review has been refused.
Deana Williamson, Clerk
L. T. "BUTCH" BRADT
14090 SOUTHWEST FREEWAY
SUITE 300
SUGAR LAND, TX 77478
* DELIVERED VIA E-MAIL *

APPENDIX2

Affirmed as Modified and Memorandum Opinion filed October 29, 2019.

In The

Fourteenth Court of Appeals
NO. 14-17-00958-CR
CHIRON SHARROL FRANCIS, Appellant
V.
THE STATE OF TEXAS, Appellee
On Appeal from the 268th District Court
Fort Bend County, Texas
Trial Court Cause No. 14-DCR-066778
MEMORANDUM OPINION
A jury found appellant Chiron Sharrol Francis guilty of two counts of murder.
The jury assessed punishment for each conviction at confinement for seventy-five
years and a fine of $5,000. The trial court ordered the sentences to run consecutively.
Following the denial of appellant’s motion for new trial, this timely appeal ensued.
We affirm each count as to eleven of the twelve issues asserted by appellant. We
overrule in part and sustain in part appellant’s tenth issue as to both counts, modify

the trial court’s judgment in both counts to reflect appellant’s sentences are to be
served concurrently, and as to both counts affirm the judgments as modified.
BACKGROUND
Appellant was charged with intentionally and knowingly causing the death of
Eric L. Heidbreder by shooting him with a deadly weapon, a firearm (count 1).
Appellant also was charged with intentionally and knowingly causing the death of
Douglas H. Schwartz by shooting him with a deadly weapon, a firearm (count 2).1
Both shootings occurred on April 11, 1994, in Fort Bend County, Texas. Appellant
left the country in May 1994. In August 1994, an arrest warrant was issued for
appellant. Appellant was detained in Caracas, Venezuela, sometime before June 16,
2014. In July 2014, appellant was charged with both murders, and in November of
2014, an application for extradition was submitted to Venezuelan authorities.
Appellant was extradited in June 2015 and indicted for both homicides. Trial began
in the fall of 2017, after multiple pretrial hearings were held in 2016 and 2017.
CLAIM OF INSUFFICIENT EVIDENCE
Because appellant’s ninth issue, if sustained, would afford the greatest relief,
we address it first. In his ninth issue appellant contends the evidence is insufficient
to support the jury’s verdict on both counts. Although appellant also challenges
factual sufficiency of the evidence, we only address whether the evidence is legally
sufficient. See Brooks v. State, 323 S.W.3d 893 (Tex. Crim. App. 2010).

1

See Act of May 24, 1973, 63d Leg., R.S., ch. 399, § 1, sec. 19.02, 1973 Tex. Gen. Laws
883, 913, amended by Act of May 28, 1973, 63d Leg., R.S., ch. 426, art. 2, § 1, sec. 19.02, 1973
Tex. Gen. Laws 1122, 1123 (1973 Penal Code § 19.02) (amended 1993) (current version at Tex.
Penal Code § 19.02).
2

Standard of Review
We apply a legal-sufficiency standard of review in determining whether the
evidence supports each element of a criminal offense that the State is required to
prove beyond a reasonable doubt. Jackson v. Virginia, 443 U.S. 307, 318–19,
(1979); Temple v. State, 390 S.W.3d 341, 360 (Tex. Crim. App. 2013); see Gear v.
State, 340 S.W.3d 743, 746 (Tex. Crim. App. 2011). Under this standard, we
examine all the evidence adduced at trial in the light most favorable to the verdict to
determine whether a jury was rationally justified in finding guilt beyond a reasonable
doubt. Temple, 390 S.W.3d at 360; Criff v. State, 438 S.W.3d 134, 136–37 (Tex.
App.—Houston [14th Dist.] 2014, pet. ref’d). We consider all evidence in the record,
whether admissible or inadmissible. Winfrey v. State, 393 S.W.3d 763, 767 (Tex.
Crim. App. 2013). We also consider both direct and circumstantial evidence, as well
as any reasonable inferences that may be drawn from the evidence. See Clayton v.
State, 235 S.W.3d 772, 778 (Tex. Crim. App. 2007). We will uphold the jury’s
verdict unless a rational factfinder had a reasonable doubt as to any essential
element. Laster v. State, 275 S.W.3d 512, 518 (Tex. Crim. App. 2009); West v. State,
406 S.W.3d 748, 756 (Tex. App.—Houston [14th Dist.] 2013, pet. ref’d).
We consider all evidence presented at trial, but we do not re-evaluate the
weight and credibility of the evidence or substitute our judgment for that of the fact
finder. See Williams v. State, 235 S.W.3d 742, 750 (Tex. Crim. App. 2007). Because
the jury is the sole judge of the witness’s credibility and the weight given their
testimony, we resolve any evidentiary conflicts or inconsistencies in favor of the
verdict. See Wesbrook v. State, 29 S.W.3d 103, 111 (Tex. Crim. App. 2000).

3

The Evidence
Schwartz’s body was found in the driver’s seat of a red Mazda on Park Manor.
Heidbreder’s body was on the pavement near the passenger side of the vehicle. Each
complainant had three gunshot wounds to the head from a 9-millimeter handgun.
Appellant’s defensive theory at trial was that he was not present when the
complainants were shot. Accordingly, we discuss the evidence as it relates to the
identity of the person who intentionally and knowingly caused the deaths of the
complainants by shooting them with a firearm.
An expert for the defense, Louis Akin, prepared a video reconstruction of the
shootings. The substance of Akin’s testimony was that the shooter stood outside the
car on the passenger’s side. According to Akin, most of the shots were fired with the
handgun held inside the car, as the shooter leaned into the car. Akin testified that
Heidbreder was probably pulled out of the car, and he expected the person who
pulled Heidbreder out of the car came in contact with Heidbreder’s blood.
Raul Velasquez lived nearby. After hearing gunshots, he looked out the
window and saw a man wearing a black cap and brown vest exit the backseat of a
little red car on the passenger side. Velasquez saw that man drag another man out of
the car. Velasquez moved to another window and saw the man in the vest on the
other side of the bayou getting on a bike. Other than the man on the ground, the only
person Velasquez saw was the man in the vest.
Officer Jack Greenwood testified that Velasquez described the person he saw
as a light-complexioned male wearing a white baseball cap turned backwards, a

4

brown vest, and dark pants. The man was about 5’7” or 5’8” tall and weighed 130
to 140 pounds.
Ralph Pawek lived on the opposite side of the bayou from Velasquez. Pawek
was in front of his house, near the street, when he heard multiple gunshots. Pawek
saw the shooter by the passenger’s side door of a little red car. Pawek described the
man’s complexion as brownish and thought he was Mexican; he had a white hat on
backward. The man reached into the car and fired three more shots. Pawek then saw
him take a white envelope from the area of the glove box. The man started towards
the bayou, walking fast. Pawek went to the backyard to avoid being seen, and after
a few minutes, looked but did not see the man. Pawek did not see anyone else.
Roy Hammond was working his first day on a new postal route when he heard
“bam, bam, bam.” Hammond looked across the bayou and saw someone leaning
over a red car as if talking to someone on the passenger’s side. Hammond proceeded
on his route and when he returned to that area, Hammond saw a light-skinned black
or Hispanic man on a bicycle.
Veronica Wells lived on Park Manor. Her children were playing outside when
she heard what she thought could be shots. Wells stepped outside and saw a man trot
by. Wells checked on her children and went inside. Wells was subsequently shown
a photographic lineup and identified the man she saw that day by signing the back
of the photograph. The man she identified was appellant. The photographic lineup
was admitted into evidence.
Two pagers were found at the scene. One pager was on the ground by the right
front tire and the other pager was on Schwartz’s body. On April 11, 1994, at 8:19
a.m., a call was made from Schwartz’s apartment to appellant’s pager. There were
two numbers registered to appellant: (1) a pager number that was disconnected less

5

than a day after the shootings; and (2) a phone number assigned to appellant’s home
address that was disconnected approximately two hours after the shootings.
John Chulsoo Paek, a close friend and housemate of Heidbreder, gave a video
statement on April 26, 1994, that was admitted into evidence. Paek also knew
Schwartz. The night of April 10, 1994, Schwartz made arrangements to purchase
sixty pounds of marijuana for $24,000. Schwartz had $11,000, Heidbreder had
$9,000, and Paek had $4,000. Schwartz did not reveal the name of the dealer but said
he drove an Impala.
The deal was planned for April 11, 1994, because Schwartz’s money was in a
safe-deposit box, and he could not access it until the bank opened at 9:00 a.m. on
Monday morning. About 10:00 a.m. on April 11, 1994, Paek and Heidbreder flew to
Hobby Airport in Houston. Schwartz drove to Houston. Heidbreder and Paek were
to check into a motel near the Astrodome and the deal would occur in the room.
Heidbreder and Paek were picked up at the airport by Kelly King and his girlfriend,
Katherine Aires. Around 11:15 a.m., Heidbreder and Paek checked into a motel.
Schwartz arrived at the motel about 12:15 p.m. and said the plan had changed.
Schwartz was going to pick up the dealer at Taco Bell. While Schwartz was gone,
Paek tried to talk Heidbreder out of the deal—believing it was a setup. Paek advised
Heidbreder to leave the money at the motel and sit in the back seat of the car with
Schwartz’s gun. Paek had seen Schwartz’s gun, a 9-millimeter, and Schwartz had
told Paek that he never went to Houston without it.
When Schwartz returned, Heidbreder left with his and Paek’s money in
several white envelopes. Paek saw Heidbreder get in the front seat and a black male,
wearing a baseball hat and shorts, climb into the back seat. Paek could not guess his
height or weight.

6

Paek waited in the hotel room. About 4:30 p.m., Katherine Aires and Kelly
King returned. When they saw the news at 5:00 p.m., they went to the police and
Paek and King gave a statement.
Reynaldo Butanda testified appellant was a friend that he had known since
junior high school. In the spring of 1994, appellant drove a green Chevy Impala and
a brown or beige Suburban. On April 11, 1994, appellant arrived at Butanda’s home
on a bike. Appellant was wearing a “beanie type cap” and a brown vest but Butanda
did not recall if appellant was wearing shorts or pants. Appellant needed a ride so
Butanda and his neighbor drove appellant to a fast-food restaurant where appellant’s
Suburban was parked.
Butanda next spoke to appellant over the phone. Appellant was “panicky,”
and told Butanda, “I did it; I did it.” Butanda went to see appellant at Athena
Scopelitis’ apartment. Scopelitis was not present when appellant told Butanda, “I did
it, I did them in.” Appellant told Butanda that he took a bike to the bayou and went
back to where he had left his vehicle, and someone picked him up. He said he “did
it” and then got on his bike and went to Butanda’s house. The shootings occurred
about three to four miles from Butanda’s house. Appellant showed Butanda money
in a white envelope. In a field by Scopelitis’ apartment, appellant walked up to a
pile, poured gas on it, and lit it on fire. Butanda did not know what was in the pile.
Butanda could not be certain whether this occurred on the same day appellant came
to his house on the bike, or the next day.
Butanda saw reports of the murders on the news and recognized Schwartz,
whom he had seen more than once at appellant’s apartment. Butanda confronted
appellant and asked him if Schwartz was one of the people that he “did in.” Appellant
replied, “Yes.” Appellant told Butanda that he met Schwartz that day to sell him

7

some “weed.” The last time Butanda saw appellant, appellant said he was leaving
and Butanda probably would not see him again.
On cross-examination, Butanda testified the largest amount of “weed” he saw
appellant with was about a pound. Butanda also admitted that he may have been in
custody as a material witness when he gave his statement, and that the police
mentioned that Butanda fit the description of the suspect. Butanda testified that
appellant was taller than he was and more muscular; Butanda considered himself
small-built. Butanda identified appellant in a picture that was taken in May of 1994,
and stated that appellant’s hair looked like that the last time Butanda saw him.
Butanda agreed that appellant’s hair, except for the bottom part, would have been
inside the beanie or skull cap. Butanda agreed that he asked about a reward flier for
$11,000, but denied asking if he could collect it.
Zev Isgur had known Schwartz since grade school. Isgur had transported
marijuana to Austin for Schwartz. The last time Isgur did so was two Saturdays
before the shootings. Isgur denied setting up a meeting between Schwartz and
another supplier, Andre Jones. Isgur said Schwartz and Jones knew each other well
enough to call each other directly. According to Isgur, Schwartz was “constantly” in
that neighborhood, and Isgur had waited with Schwartz at the same place where
Schwartz was killed.
Athena Scopelitis testified that in 1994 she had known appellant for a few
years. In May 1994, she went to the Dominican Republic with appellant and returned
in October of that year. According to her trial testimony, appellant did not tell
Scopelitis why he wanted to leave the country. Appellant did not return to the United
States with Scopelitis; she testified she had not seen appellant since leaving the
Dominican Republic. Scopelitis stated that she did not recall talking to police or

8

giving an affidavit. Scopelitis recalled appellant and “Rey”2 coming to her apartment
but nothing more. She testified appellant did not seem upset. Scopelitis was unaware
about appellant telling federal officers that he fled because he was afraid.
Scopelitis testified that after having no contact for almost twenty years,
appellant’s mother contacted her a few months before trial, and they spoke several
times. The most recent contact was about a week before trial. Scopelitis denied that
appellant’s mother told her what to say and claimed to be nervous because she
believed members of the complainants’ families might try to retaliate. Scopelitis
denied knowing anything about the shootings when they happened and claimed
appellant never talked to her about it. She said appellant had an old Impala and his
other vehicle was a Suburban.
An affidavit by Scopelitis from October 1994 was admitted into evidence.
Scopelitis averred:
. . . I had a friend named Chiron Francis [appellant]. I had known Chiron
him [sic] for about three years. . . . I knew that Chiron was a narcotics
dealer and mainly dealt marijuana. . . .At that time, he owned a brown
Suburban, but he didn’t drive it very much. Through Chiron, I met a
friend of his named “Ray.” At the time, I did not know if “Ray” was
involved in Chiron’s narcotics transactions. I came to know that Ray
owned a couple of guns, one of which was a handgun.
Sometime during the middle of April, 1994, . . .Chiron came over. . . .
He stayed for awhile and then he left. He came back in a couple of
hours. . . . and after about 20 minutes Ray came in also. . . . I began to
get the feeling that something was going on between Chiron and Ray. .
. . I asked Chiron to go outside with me to check the mail so I could
speak with him alone. I asked him “Is there something going on” [sic]
Chiron at first said that there was nothing going on, but then told me
that he was involved in a murder in Houston, Tx. and that it was a white
boy that got killed. I asked Chiron where they [sic] killing had happened
and he told me that it was in Southwest Houston. I asked him who had
2

Scopelitis claimed not to know if “Rey” was Reynaldo Butanda.
9

been killed and if it was anyone that we knew. He just kept saying,
“Don’t worry. You don’t want to get involved.”
Later, Chiron and Ray left. . . . While they were gone, I went over to a
friend of mine’s apartment. . . . I told her that I was scared and I thought
that Chiron was involved in some type of murder. . . .
When they returned, Ray stayed in the living room and Chiron and I
went into the bedroom. I asked him where he had been and he told me
that they had been “back there burning some clothes.” I asked him
whose clothes. Chiron didn't answer but just looked at me. He kept
stating to me, “I don’t want to tell you too much. You don’t want to get
involved!” I assumed that the burnt clothes had something to do with
the murder that Chiron told me he was involved in. Over the next couple
of days, I continued to question him about the murder and all he ever
told me was, “Don’t worry about it; I don’t want you to get involved!”
About three days after he told me about the murder, Chiron told me that
we needed to go away for a while. He suggested the Caribbean and I
suggested that we go to the Dominican Republic. I suspected that the
reason he wanted to leave the United States, but he never actually told
me that it was the reason.
We got our passports and left for the Dominican Republic the first week
of May, 1994. Before we left the States, I saw Chiron counting some
money inside my apartment. I recall him telling me that it was about six
thousand dollars. . . . I was having problems with my pregnancy and I
wanted to come back to the States so I came back this past Monday
night. Chiron told me that he would come back later but I don’t think
he will ever come back. . . .
Scopelitis stated she did not know if “Ray” was Rey Butanda but agreed that
he was Latino and shorter than appellant. Scopelitis “guessed” the passport photo of
appellant admitted into evidence showed his appearance in 1994 and said appellant
was “bigger” at trial. Scopelitis testified George Ward bore a resemblance to
appellant at the time of the shootings and Ward’s photograph was admitted into
evidence. George also was involved in narcotics trafficking in 1994, but was
deceased at the time of trial.

10

Jack McClain, a special agent with Homeland Security Investigations, took an
audio statement from appellant on June 16, 2014, while appellant was at a detention
center in Caracas, Venezuela. Appellant said he read on the Internet that he was a
suspect in a double-homicide that occurred in Texas in 1994. Appellant denied ever
killing anyone. Appellant said he left Texas “when the boys were murdered” because
he knew them. Appellant admitted that he sold small quantities of “dope.” Appellant
knew Schwartz, but not the other man, and had seen both complainants on the
morning they were killed. According to appellant, Schwartz called him to buy one
or two pounds of “weed,” which appellant said he did not have because he only had
nickel and dime bags. Appellant told Schwartz to call “BJ,” his Mexican connection.
Appellant talked to Schwartz that morning and put him in contact with “BJ.”
Appellant told Schwartz to pick him up at a body shop, where appellant left his
vehicle. Schwartz and Heidbreder picked appellant up around 9:00 a.m. Appellant
sat in the back seat of the car, a red Mazda. They smoked a “joint” and appellant was
dropped off at his house around 9:15 a.m. No one else was at his house. Appellant’s
father came home and saw appellant, but appellant did not remember what time.
According to appellant, he was not on Park Manor on April 11, 1994, but stayed
home after 9:15 a.m.
According to appellant, he next saw Schwartz and Heidbreder “on the news”
and found out what happened to them the following day. Appellant testified he
received a call from the Mexican mob and was told to be careful or they would come
for him next. Appellant said he was scared. Appellant left his father’s house and
went to his girlfriend’s house in Sugar Land and stayed with her for a week.
According to appellant, he continued to receive death threats from the Mexican mob.
Rey and others told appellant “they” were coming for him, but appellant claimed not
to know the reason. Appellant speculated it was because he was the only connection
11

between the Mexican mob and the complainants. Appellant said people were
threatening his family, but he did not know if his family had reported it.
Appellant went to the Dominican Republic and stayed for almost two years
before going to Africa. Eventually, appellant went to Venezuela.
Analysis
Appellant challenges the sufficiency of the evidence on the grounds the State
failed to prove that it was he who intentionally or knowingly caused the deaths of
Heidbreder or Schwartz. Appellant does not contest any other element of either
offense.3
Specifically, appellant argues there was no evidence placing him at the scene,
specifically that there were no fingerprints, no DNA, and no shoe prints. Appellant
references testimony that the officers processing the scene did not take enough
photos, failed to examine or test the complainants’ clothing, and asserts there was
no positive identification of blood or DNA.
Further, appellant points to Pawek’s and Hammond’s failure to identify him
as the person they saw on April 11, 1994. Appellant also contends witnesses did not
describe the suspect as having dreadlocks, even though appellant had dreadlocks at
the time that would not have been concealed by a cap. In addition, the witnesses did
not describe the suspect as 6’2” tall, which is appellant’s height. Wells described
appellant as being of medium height but when appellant stood, Wells agreed his
height was not “medium.” According to appellant, the photograph Wells signed was
“old” and therefore did not show how he looked on April 11, 1994. Wells could not
identify appellant in court as the person she saw on April 11, 1994, but could only
identify the photograph as the one she signed on April 27, 1994.
3

See 1973 Penal Code § 19.02, supra, note 1.
12

Appellant contests Butanda’s testimony on several grounds. Butanda was in
custody in October 1994 when he gave his statement to police and officers told
Butanda that Butanda fit the description of the suspect. Butanda could not provide a
specific date when he spoke to appellant over the phone or went to Scopelitis’
apartment and Butanda did not describe appellant as having blood on himself, mud
on his bike, or being agitated. Further, Butanda’s testimony that appellant said he
“did it” could have referred to setting up the drug deal. Also, Butanda knew about
the Crime Stoppers’ reward but did not call to collect the reward or inquire about the
reward.
The record reflects appellant admitted to being in the Mazda with Schwartz
and Heidbreder the morning of April 11, 1994. He did not claim that had the scene
been processed more thoroughly, it would have shown that he was not in the car that
day. Appellant claimed he was dropped off at home by 9:15 a.m.; however,
Heidbreder and Paek did not leave Austin until after 9:15 a.m. and a call was made
from Schwartz’s apartment to appellant’s pager at 8:19 a.m. From this evidence, a
rational trier of fact could have found appellant’s testimony was not credible. See
Wesbrook, 29 S.W.3d at 111 (stating the jury is the sole judge of the witness’s
credibility and the weight given their testimony).
The record reflects when Wells was shown the lineup, she identified the man
in one of the photographs as the man she saw on April 11, 1994. She signed the back
of that photograph to indicate her selection. Wells identified her signature on the
back of the photograph. Wells admitted that she could not identify the person she
saw that day from memory.
The jury heard evidence of the physical descriptions of the suspect given by
the witnesses. The jury resolved any conflicts or inconsistencies in light of other
evidence. The jury heard testimony that Velasquez and Hammond saw a man on a
13

bike and appellant arrived at Butanda’s home on a bike, which appellant left near
the scene of the shootings before being picked up by Schwartz. Paek said Heidbreder
took the money with him in white envelopes. Pawek saw the suspect take a white
envelope from the car. Appellant showed Butanda money in a white envelope and
Scopelitis said appellant had $6,000 in cash. Appellant admitted to Butanda that he
killed Schwartz and Heidbreder. Scopelitis’ affidavit is consistent with Butanda’s
testimony. After the day of the murders, appellant disconnected his pager and phone
and in May 1994, appellant left the country.
It is not for this court to re-evaluate the weight and credibility of the evidence
or substitute our judgment for that of the fact finders. See William, 235 S.W.3d at
750. Rather, we resolve any evidentiary conflicts or inconsistencies in favor of the
verdict. See Wesbrook, 29 S.W.3d at 111. Considering all the evidence in a light
most favorable to the verdict, we conclude a rational juror could have found
appellant guilty beyond a reasonable doubt of being the person who intentionally or
knowingly caused the deaths of Heidbreder and Schwartz by shooting them with a
firearm. See Jackson, 443 U.S. at 319; Gear, 340 S.W.3d at 746. Appellant’s ninth
issue is overruled as to both counts.
CLAIMS THAT OFFICERS MISHANDLED EVIDENCE
In his first issue, appellant contends he was denied a fair trial in violation of
his constitutional rights. See U.S. Const. amends. VI, XIV; Tex. Const. art. I, § 19.
In his second issue appellant contends the trial court erred by denying his motion to
dismiss and his motion to suppress on the grounds officers violated sections 37.094

4

Act of May 24, 1973, 63d Leg., R.S., ch. 399, § 1, sec. 37.09, 1973 Tex. Gen. Laws 883,
948, amended by Act of May 17, 1991, 72d Leg. R.S., ch. 565, § 4, 1991 Tex. Gen. Laws 2003,
2004 (1991 Tex. Penal Code § 37.09) (amended 1997, 2007, 2011) (current version at Tex. Penal
Code § 37.09).
14

and 37.105 of the Texas Penal Code. As grounds for both issues, appellant claims
the State, acting in bad faith, tampered with, concealed, fabricated, failed to preserve,
concealed, and destroyed evidence and falsified government records. We consider
these claims pursuant to the statutes in effect on April 11, 1994.
Section 37.09 provided, in pertinent part:
(a) A person commits an offense if, knowing that an investigation or
official proceeding is pending or in progress, he:
(1) alters, destroys, or conceals any record, document, or thing with
intent to impair its verity, legibility, or availability as evidence in the
investigation or official proceeding; or
(2) makes, presents or uses any record, document, or thing with
knowledge of its falsity and with intent to affect the course or outcome
of the investigation or official proceeding.
Section 37.10 provided, in pertinent part:
(a) A person commits an offense if he:
(1) knowingly makes a false entry in, or false alteration of, a
governmental record;
(2) makes, presents, or uses any record, document, or thing with
knowledge of its falsity and with intent that it be taken as a genuine
governmental record; or
(3) intentionally destroys, conceals, removes, or otherwise impairs the
verity, legibility, or availability of a governmental record;
(4) makes, presents, or uses a governmental record with knowledge of
its falsity. . . .

5

Act of May 24, 1973, 63d Leg., R.S., ch. 399, § 1, sec. 37.10, 1973 Tex. Gen. Laws 883,
948, amended by Act of May 29, 1989, 71st Leg., ch. 1248, § 66, 1989 Tex. Gen. Laws 4996,
5041, amended by Act of May 2, 1991, 72d Leg., ch. 113, § 4, 1991 Tex. Gen. Laws 686, 687,
amended by Act of May 17, 1991, 72d Leg., ch. 565, § 5, 1991 Tex. Gen. Laws 2003, 2004 (1991
Tex. Penal Code § 37.10) (amended 1993, 1997, 1999, 2001, 2003, 2005, 2007, 2009, 2013, 2015,
2019) (current version at Tex. Penal Code § 37.10).
15

In his argument, appellant complaints about specific pieces of evidence. We
address these claims below.
Heidbreder’s Body
Appellant asserts that Sergeant John Clarke’s affidavits establish officers
tampered with physical evidence.6 Specifically, appellant claims officers must have
moved Heidbreder’s body.
At the hearing on the motion to suppress, Clarke testified that he became
involved in this case in 2005 as part of the FBI Task Force on fugitive investigations.
He had no personal knowledge of the crime scene. In making his affidavits he relied
upon the reports and documents prepared from the investigation. Clarke
acknowledged those reports may contain inaccuracies.
Clarke executed two affidavits in July 2014—one in support of appellant’s
extradition and the other in support of appellant’s arrest. Both affidavits were
admitted into evidence as exhibits during the hearing on appellant’s motion to
suppress. The affidavit in support of extradition states the information presented
“was obtained through witness interviews, the collection of evidence, and other
sources.” The affidavit for the arrest warrant is based upon Clarke’s review of an
offense report.
Both affidavits state that Heidbreder was in the front passenger’s seat.
Appellant points out this statement is inconsistent with the photographic evidence of
the crime scene. It is also inconsistent with evidence adduced at trial. Pawek testified
he saw the suspect pull the passenger out of the car, and appellant’s expert, Akin,
testified that he believed the shooter pulled Heidbreder from the car.

6

1991 Tex. Penal Code § 37.09, supra, note 4.
16

There is no evidence officers moved Heidbreder’s body or that Clarke’s
affidavit is perjurious. Rather, there is an inconsistency between the report on which
Clarke relied and the evidence adduced. There is no evidence that officers altered
any “thing” with intent to impair its verity, or availability as evidence in the
investigation. Accordingly, the record does not reflect an offense under section 37.09
was committed.
Shell Casings
Appellant suggests officers falsified government records.7 Appellant
complains of an entry in the Current Information Report (“CIR”) which refers to
seven shell casings. However, a photograph of the interior of the car shows a shell
casing not referred to in the CIR—the eighth shell casing. Further, the Investigator’s
Report states bullet “casings” (plural) were found adjacent to the right front wheel
of the car even though the photograph shows only one casing—the ninth shell casing.
There is no evidence that officers falsely, rather than mistakenly, reported the
number of shell casings or made the report with knowledge of its falsity.
Accordingly, the record does not reflect an offense was committed.
The LSU Cap
Next, appellant contends officers tampered with evidence and a government
record by “planting” an LSU cap in the car. Photographs taken at the crime scene
show only one baseball cap—a red and blue “KC” cap. An LSU cap was collected
as evidence by an officer who was deceased at the time of trial. However, the LSU
cap is not shown in any of the photographs of the crime scene. Further, appellant
contends the LSU cap is not shown in any of the photographs of Schwartz and was

7

1991 Tex. Penal Code § 37.10, supra note 5.
17

not listed among Schwartz’s clothing in the autopsy report, despite being listed in
the CIR, which states:
RED AND BLUE “KC” BALLCAP WHICH WAS ATOP A PURPLE
AND GOLD “LSU” BALLCAP, BOTH ATOP [Schwartz’s] HEAD.
Also, appellant argues the LSU cap had two bullet holes, neither of which lined up
with the single bullet hole in the KC cap. And lastly, appellant avers the LSU cap
tested negative for the presence of human blood. According to appellant, this all
leads to “the inescapable conclusion . . . the LSU ballcap was planted by the police.”
Appellant’s characterization of the test results is inaccurate. Juli Rehfuss, a
criminalist with the Houston Forensic Science Center, testified during the hearing
on appellant’s motion to suppress that she processed stains on both caps for the
presence of blood. Rehfuss performed a Hematrace Test, which would confirm
whether or not the stains were human blood, and the results were negative. Rehfuss
explained the results as follows, “the item responded negatively to human origin
testing by Hematrace because . . . there probably either wasn’t enough sample there
or the proteins were too degraded to actually register on the test.” Thus, the blood
test results were negative, but not necessarily because the sample was not human
blood. Rehfuss further testified that she sent the sample for DNA testing, and the
DNA analyst’s report did give a single source human male DNA profile. There is an
inconsistency between the report and the evidence adduced but there is no evidence
officers planted the LSU cap in the car.
The fact that the LSU cap had two bullet holes that did not align with the
single bullet hole in the KC cap is evidence the CIR report is incorrect. This is
supported by a photograph showing the KC cap on Scwhartz’s head. There is not
another cap under the KC cap, which fits snugly. Thus, the report is inaccurate but
does not establish officers planted evidence with intent to impair its verity or
18

availability in the investigation. Accordingly, the record does not reflect an offense
was committed.8
The Car
Appellant complains the car was released with no evidence having been
collected from it. Specifically, appellant notes that no DNA samples were taken, no
fingerprints were lifted, no tests for gunshot residue were performed, no
measurements were taken, and no trajectories were calculated. However, in his audio
statement to McClain, appellant admitted to being in the back seat of the car on the
morning of the shootings. Appellant admitted that he was in the back seat of the car
before the shootings and therefore evidence from inside the car would not have
exculpated him. The release of the car does not establish officers destroyed evidence
with intent to impair its availability as evidence in the investigation. Accordingly,
the record does not reflect an offense was committed.9
Denial-of- Due-Process or Due-Course-of-Law Claim
Appellant contends the inconsistencies described above and the failure of the
State to preserve evidence amount to a denial of his rights to due process and due
course of law. Further, appellant contends these evidentiary issues establish
violations of the 1991 Texas Penal Code section 37.09, and therefore the evidence
should have been suppressed and the cases against him dismissed.10
The State has a duty to preserve exculpatory evidence and potentially useful
evidence. State v. Vasquez, 230 S.W.3d 744, 749 (Tex. App.—Houston [14th Dist.]
The State’s case was not based upon the LSU cap or any forensic evidence derived
therefrom.
8

9

Furthermore, the State’s case was not based upon any forensic evidence taken from the

car.
10

Appellant presented these arguments to the trial court in his motion to suppress and
motion to dismiss. For purposes of this appeal, we assume without deciding that violations of the
19

2007, no pet.). There is a distinction between “material, exculpatory evidence” and
“potentially useful evidence.” Id. at 747. Potentially useful evidence is “evidentiary
material of which no more can be said than that it could have been subjected to tests,
the results of which might have exonerated the defendant.” Arizona v. Youngblood,
488 U.S. 51, 57–58 (1988).
To show a violation of due process or due course of law based on potentially
useful evidence, as opposed to material, exculpatory evidence, the defendant must
show the State acted in bad faith. Vasquez, 230 S.W.3d at 747 (citing Illinois v.
Fisher, 540 U.S. 544, 547–48 (2004); Youngblood, 488 U.S. at 58 (due process));
Mahaffey v. State, 937 S.W.2d 51, 53 (Tex. App.—Houston [1st Dist.] 1996, no pet.)
(due course of law)). Similarly, to constitute an offense under the 1991 Texas Penal
Code section 37.09, it must be proven the actor had the requisite intent.
When the trial court denied appellant’s motions to suppress and dismiss, the
court found appellant had presented only supposition and speculation. The trial court
found that the State did not act in bad faith and there is no evidence to the contrary
in our record. Accordingly, the record supports the trial court’s finding that the State
did not act in bad faith. Viewing the evidence in the light most favorable to the trial
court’s ruling, we hold the record adequately supports the trial court’s finding that
the State did not act in bad faith. See Jones v. State, 437 S.W.3d 536, 540 (Tex.
App.—Texarkana 2014, pet. ref’d). Accordingly, we hold the trial court did not
abuse its discretion in denying appellant’s motion to suppress or motion to dismiss.
See Vasquez, 230 S.W.3d at 747–48 (affirming denial of motion to suppress bloodtest results performed on an accused intoxicant’s blood sample where the trial court

1991 Texas Penal Code sections 37.09 and 37.10 would render the evidence inadmissible.
20

found that the blood sample was not destroyed in bad faith); see also Jones, 437
S.W.3d at 54. Issues one and two are overruled as to both counts.
CLAIMS OF PERJURY AND FRAUD ON THE COURT
As an alternative to issue one, appellant argues in his third issue that if
Sergeant Clarke’s affidavits are not perjurious, the State failed to produce Brady
material.11 But, appellant contends, if Clarke’s affidavits are perjurious, then the trial
court erred in failing to find fraud on the court. Further, in issue four, appellant
contends that if Clarke’s affidavits are perjurious, his due process rights were
violated by use of those affidavits to secure his extradition from Venezuela.
We have already concluded in our discussion of appellant’s first issue, supra,
that there is no evidence Clarke’s affidavits were perjurious. Appellant asserts that
if the affidavits were not perjurious, the State failed to produce Brady material.
Specifically, appellant complains the State failed to produce evidence “showing the
position of the bodies in the car when the police arrived.” As set forth in our
discussion of appellant’s first issue, supra, the evidence demonstrates Heidbreder’s
body was not in the car when the police arrived. Thus there was no evidence
“showing the position of [Heidbreder’s body] in the car when the police arrived.”
Accordingly, we overrule issues three and four as to both counts.
CLAIMS THAT EVIDENCE WAS ERRONEOUSLY EXCLUDED
Appellant makes a single argument for his fifth, sixth and seventh issues. In
his fifth issue, appellant claims the trial court’s exclusion of evidence that the State
collected and produced, because there was no one to sponsor it, denied him a fair
trial in violation of his federal and state constitutional rights. See U.S. Const.
amends. VI, XIV; Tex. Const. art. I, § 19. In issue six appellant contends the trial
11

Brady v. Maryland, 373 U.S. 83 (1963).
21

court’s exclusion of evidence denied appellant equal protection of the law because
in his criminal trial he was required to have the State authenticate or sponsor the
evidence that it produced, but in a civil case the production of items by one party
authenticates those items for use against that party. Lastly, in issue seven appellant
asserts he was denied his right to substantive due process when Brady material was
excluded because there was no one to sponsor or authenticate that evidence.
Appellant makes two references to the record where the trial court sustained
the State’s objections to evidence that he was attempting to introduce. That evidence
consisted of photographs of the LSU cap and the KC cap. The two photographs of
the KC cap were, in fact, admitted into evidence as defense exhibits. However, the
trial court sustained the State’s objection to admitting the two photographs of the
LSU cap as defense exhibits. The record reflects the LSU cap is not depicted in any
of the photographs of the crime scene and the officer who collected the LSU cap as
evidence was deceased at the time of trial.
Assuming, without deciding, the trial court erred in excluding the photographs
of the LSU cap, we conclude the exclusion of the photographs does not constitute
reversible error. Generally, the erroneous exclusion of evidence offered under the
rules of evidence constitutes non-constitutional error and is reviewed under Texas
Rule of Appellate Procedure 44.2(b).12 Walters v. State, 247 S.W.3d 204, 219 (Tex.
Crim. App. 2007). However, the exclusion of evidence might rise to the level of a
12

Texas Rule of Appellate Procedure 44.2 provides:

(a) Constitutional Error. If the appellate record in a criminal case reveals
constitutional error that is subject to harmless error review, the court of appeals
must reverse a judgment of conviction or punishment unless the court determines
beyond a reasonable doubt that the error did not contribute to the conviction or
punishment.
(b) Other Errors. Any other error, defect, irregularity, or variance that does not
affect substantial rights must be disregarded.
22

constitutional violation if: (1) a state evidentiary rule categorically and arbitrarily
prohibits the defendant from offering otherwise relevant, reliable evidence vital to
the defense; or (2) a trial court’s clearly erroneous ruling results in the exclusion of
admissible evidence that forms the vital core of a defendant’s theory of defense and
effectively prevents the defendant from presenting that defense. Id.; see also
Vasquez v. State, 501 S.W.3d 691, 700 (Tex. App.—Houston [14th Dist.] 2016, pet.
ref’d).
The record reflects appellant’s defense was that he was not present at the scene
of the shooting. As discussed in addressing appellant’s claim that the evidence was
insufficient to support the judgments, appellant stated that he was taken home at 9:15
a.m. and stayed there the rest of the day. Appellant offers no explanation as to how
these two photographs were vital to his defense and he makes no claim that their
exclusion precluded him from presenting that defense. Nor could we reasonably
conclude that the photographs of the LSU cap were so vital to appellant’s defense
that their exclusion, in light of all the evidence adduced, contributed to his
conviction. See Tex. R. App. P. 44.2(a). Thus, even under the heightened standard
of review for constitutional error, we conclude the trial court’s error, if any, was
harmless. Issues five, six and seven are overruled as to both counts.
CLAIM THAT EVIDENCE WAS ADMISSIBLE AS AN ANCIENT DOCUMENT
In his eighth issue appellant claims his federal and state constitutional rights
were violated when the trial court excluded an “ancient document.” See U.S. Const.
amends. VI, XIV; Tex. Const. art. I, § 19. Specifically, appellant complains the trial
court erred in refusing to admit Defendant’s Exhibit 109, a written statement dated
May 4, 1994, that bears the signature of Islam Mujahid.
Mujahid was driving a garbage truck for the City of Houston on April 11,
1994. He was questioned by police about a red car that he saw at a dead end where
23

Park Manor intersects with Castlecreek while he was driving his route. During his
testimony, defense counsel asked Mujahid about a written statement he gave to
police. Mujahid testified that he gave an oral statement, not a written statement.
Defense counsel sought to admit a written statement as Defendant’s Exhibit 109.
Mujahid identified the signatures on both pages of the statement as his but testified
the words in the statement above his signature were not there when he signed those
two pages. At the close of voir dire, the trial court sustained the State’s objection to
admitting the statement but gave defense counsel leave “to try to prove this up.”
On direct examination, Mujahid testified he saw the red car but that he did not
look into the car and did not see anyone inside. Mujahid testified he did not sign
“that paper,” and did not know how his signature “got there.” According to Mujahid,
he did not give that statement and “those are not [his] words.”
Defense counsel sought to admit Defendant’s Exhibit 109 as a prior
inconsistent statement. The trial court sustained the State’s objection.13
Mujahid then speculated those statements were made by the other driver on
the truck. When asked if he read the documents before signing them, Mujahid
testified, “There was nothing to sign. They just questioned us.” Defense counsel then
passed the witness, subject to recall.
Another witness testified and proceedings ended for the day. The next day,
defense counsel again sought to admit Defendant’s Exhibit 109 as an ancient
document under Rules of Evidence 803 and 901. Tex. R. Evid. 803, 901. The trial

13

Appellant does not claim on appeal the statement was admissible as a prior inconsistent
statement. See Tex. R. Evid. 801(e)(1); Owens v. State, 916 S.W.2d 713, 717 (Tex. App.—Waco
1996, no pet.) (concluding witness’s voluntary written statement to police did not qualify for Rule
801(e)(1) exclusion from hearsay because the inconsistent statement must have been given under
oath subject to the penalty of perjury).
24

court sustained the State’s objection after counsel for the State confirmed that the
police officer who took the statement was deceased.
Rule 803(16) provides that “[a] statement in a document that is at least 20
years old and whose authenticity is established” is an exception to the rule against
hearsay, regardless of whether the declarant is available as a witness. Tex. R. Evid.
803(16). Rule 901 states that “[t]o satisfy the requirement of authenticating or
identifying an item of evidence, the proponent must produce evidence sufficient to
support a finding that the item is what the proponent claims it is.” Tex. R. Evid. 901.
An example of evidence that satisfies this requirement as to a document is “evidence
that it (A) is in a condition that creates no suspicion about its authenticity; (B) was
in a place where, if authentic, it would likely be; and (C) is at least 20 years old when
offered.” Tex. R. Evid. 901(8).
We review a trial court’s decision to admit or exclude evidence for an abuse
of discretion. Gonzalez v. State, 544 S.W.3d 363, 370 (Tex. Crim. App. 2018);
Roderick v. State, 494 S.W.3d 868, 874 (Tex. App.—Houston [14th Dist.] 2016, no
pet.). If the trial court’s decision is within the bounds of reasonable disagreement,
we will not disturb its ruling. Gonzalez, 544 S.W.3d at 370. The trial court’s ruling
will be sustained if it is correct on any theory of law applicable to the case. Roderick,
494 S.W.3d at 874.
To authenticate the statement, appellant relies upon Mujahid’s identification
of his signatures on both pages of the statement. However, Mujahid testified that the
words in the statement were not his and he did not know how his signature came to
be on those two pages. Thus, the trial court had grounds to find there was some
suspicion about the document’s authenticity and to refuse to admit it as an ancient
document. See Tex. R. Evid. 901(8)(A). Issue eight is overruled as to both counts.

25

CLAIM THAT SENTENCE IS ILLEGAL
In his tenth issue appellant claims the sentences imposed are illegal for three
reasons. First, appellant asserts the trial court had no authority to order consecutive
sentences because section 3.03 of the Texas Penal Code and article 42.08 of the
Texas Code of Criminal Procedure mandate the sentences shall run concurrently.
The version of section 3.03 of the Texas Penal Code in the effect at the time
of the offense states:
When the accused is found guilty of more than one offense
arising out of the same criminal episode prosecuted in a single criminal
action, sentence for each offense for which he has been found guilty
shall be pronounced. Such sentences shall run concurrently.14
The applicable version of article 42.08 of the Texas Code of Criminal
Procedure provides:
(a) When the same defendant has been convicted in two or more cases,
judgment and sentence shall be pronounced in each case in the same
manner as if there had been but one conviction. Except as provided by
Subsections (b) and (c), of this article, in the discretion of the court, the
judgment in the second and subsequent convictions may either be that
the sentence imposed or suspended shall begin when the judgment and
the sentence imposed or suspended in the preceding conviction has
ceased to operate, or that the sentence imposed or suspended shall run
concurrently with the other case or cases, and sentence and execution
shall be accordingly. . . .15
14

Act of May 24, 1973, 63d Leg., R.S., ch. 399, § 1, sec. 3.03, 1973 Tex. Gen. Laws 883,
891 (amended 1995, 1997, 2005, 2007, 2009, 2011, 2013, 2019) (current version at Tex. Penal
Code § 3.03).
15

Act of May 27, 1965, 59th Leg., R.S., ch. 722, §1, art. 42.08, [2] 1965 Tex. Gen. Laws
317, 486, amended by Act of Apr. 2, 1985, 69th Leg., R.S., ch. 29, § 1, 1985 Tex. Gen. Laws 404,
404, amended by Act of May 30, 1987, 70th Leg., R.S., ch. 513, § 1, 1987 Tex. Gen. Laws 2125,
2125, amended by Act of May 28, 1989, 71st Leg., R.S., ch. 785, § 4.11, 1989 Tex. Gen. Laws
3471, 3495, Act of May 8, 1993, 73d Leg., R.S. ch. 900, § 5.03, 1993 Tex. Gen. Laws 3586, 3745,
3752 (amended 2009, 2015, 2017) (current version at Tex. Code Crim. Proc. art. 42.08).
26

The trial court stated in open court that the two sentences of seventy-five years
would be “cumulative.” The written judgments do not reflect the sentences are to be
cumulative and there is no motion or order in the record before this court to cumulate
the sentences. However, since the oral pronouncement controls, appellant’s
sentences are, in fact, cumulative. See Coffey v. State, 979 S.W.2d 326, 328 (Tex.
Crim. App. 1998) (holding the sentence pronounced in open court represents the
actual sentence and should there arise any conflict between the sentence pronounced
in open court and that manifested in the ensuing judgment, the sentence pronounced
in open court controls). As a general rule, when the oral pronouncement of sentence
and the written judgment vary, the oral pronouncement controls. Taylor v. State, 131
S.W.3d 497, 500 (Tex. Crim. App. 2004); Ex parte Madding, 70 S.W.3d 131, 135
(Tex. Crim. App. 2002). Explaining the rationale for this rule, we have stated,
[T]he imposition of sentence is the crucial moment when all of the
parties are physically present at the sentencing hearing and able to hear
and respond to the imposition of sentence. Once he leaves the
courtroom, the defendant begins serving the sentence imposed. Thus,
“it is the pronouncement of sentence that is the appealable event, and
the written sentence or order simply memorializes it and should
comport therewith.”
Madding, 70 S.W.3d at 135 (quoting Coffey v. State, 979 S.W.2d 326, 328 (Tex.
Crim. App. 1998)).
The trial court’s general authority under article 42.08 to order consecutive
sentences is statutorily limited by section 3.03 whenever a single criminal action
arising out of the same criminal episode occurs. See LaPorte v. State, 840 S.W.2d
412, 415 (Tex. Crim. App. 1992), overruled on other grounds by Ex parte Carter,
521 S.W.3d 344 (Tex. Crim. App. 2017). “If the facts show the proceeding is a single
criminal action based on charges arising out of the same criminal episode, the trial
court may not order consecutive sentences.” Id. Accordingly, we hold that the trial
27

court erred in failing to order that appellant’s sentences shall run concurrently.
Fernandez v. State, 814 S.W.2d 417, 420 (Tex. App.—Houston [14th Dist.] 1991),
aff’d, 832 S.W.2d 600 (Tex. Crim. App. 1992).
Appellant further argues that under the Constitution of Venezuela and the
Extradition Treaty between the United States and Venezuela,16 the sentence of
seventy-five years for each count is illegal. According to appellant, because he was
born in 1973, a seventy-five-year sentence is an illegal life sentence. Further,
appellant contends any sentence greater than thirty years is illegal. Alternatively,
appellant argues the United States had to present “satisfactory assurances” that a life
sentence would not be imposed.
Appellant presented these arguments to the trial court. In a hearing held on
May 22, 2017, the trial court ruled as follows:
Reading the extradition document as furnished to the Court, the
interpretation thereof, the only reference to 30 years is the federal
attorney’s request of 30 years; and that’s the only reference. There has
been no limitation placed upon that in the opinion of the Court.
The ruling of the Court itself does not place any limitations;
however, it’s very clear they were cognizant of the constitution of
Venezuela which said no death penalty and no life sentence.
The opinion of the individual from the State Department speaks that
they entered no agreements; but the constitution of Venezuela is very
clear that they will not extradite upon a life or a death sentence.
Therefore, there’s no limitation on years; but there is a limitation on life
or death; and I will so find.
The recommendation that extradition should be granted “with the condition
that [the United States] provide enough guarantees to not subject [appellant] to . . .
imprisonment of more than thirty (30) years” does not establish an agreement to
16

Treaty of Extradition, U.S.-Venez., art. IV, Jan. 19, 1922, 43 Stat.1698, T.I.A.S. No.

765.
28

limit appellant’s sentence to a maximum of thirty years. Appellant did not receive a
life sentence for either count—he was sentenced to a term of imprisonment for
seventy-five years.
Accordingly, we reject appellant’s claim that in each count his sentence of
seventy-five years was illegal. We therefore overrule, in part, appellant’s tenth issue
on both counts. We sustain, in part, appellant’s tenth issue on both counts and modify
the trial court’s judgments to reflect the sentences imposed shall be served
concurrently.
CLAIM THAT TRIAL COURT ERRED DURING VOIR DIRE
In his eleventh issue, appellant contends the trial court erred in refusing to
strike venirepersons 1–12, 16–20, 24–29, 33–55, 59–63, 65–67, 69–70, 74, 76, 78–
81, 84, 87, 89–90, and 96–100 for cause. Of these venirepersons, eleven served on
appellant’s jury (Nos. 4, 7, 8, 11, 26, 29, 34, 36, 37, 39 and 40).
To preserve error for a trial court’s erroneous denial of a challenge for cause,
appellant must show that: (1) he asserted a clear and specific challenge for cause;
(2) he used a peremptory challenge on the complained-of venire member; (3) his
peremptory challenges were exhausted; (4) his request for additional strikes was
denied; and (5) an objectionable juror sat on the jury. Comeaux v. State, 445 S.W.3d
745, 750 (Tex. Crim. App. 2014); see also Landers v. State, 110 S.W.3d 617, 624
(Tex. App.—Houston [14th Dist.] 2003, pet. ref’d) (holding error in the denial of a
challenge for cause was not preserved for review because defense counsel failed to
use an available peremptory challenge against the allegedly objectionable juror). The
record reflects appellant did not request any additional strikes and therefore failed to
preserve his issue for appellate review. See Tex. R. App. P. 33.1. We overrule issue
eleven on both counts.

29

CLAIM THAT VIDEO RECORDING SHOULD HAVE BEEN TRANSCRIBED
In his twelfth and final issue appellant complains of this court’s refusal to
abate this appeal and order the court reporter to transcribe the video recording of a
statement by John Chulsoo Paek. To complain of a court reporter’s failure to
transcribe the audio portion of a videotaped statement that was played to the jury
during the guilt-innocence and punishment phases of the trial, the defendant must
have preserved error by objecting before the trial court. See Williams v. State, 937
S.W.2d 479, 486 (Tex. Crim. App. 1996). Appellant did not object and therefore
waived any such complaint on appeal. See Tex. R. App. P. 33.1(a). Issue twelve is
overruled as to both counts.
CONCLUSION
The judgment of the trial court in each count is modified to reflect that the
sentences run concurrently. As modified, the judgments are affirmed.
Based on this disposition, it is unnecessary to address the State’s issue on
cross-appeal that it should be able to seek a life sentence if the case is reversed and
remanded for a new trial.

/s/

Margaret “Meg” Poissant
Justice

Panel consists of Chief Justice Frost and Justices Spain and Poissant.
Do Not Publish — Tex. R. App. P. 47.2(b).

30

APPENDIX3

FILE COPY

Justices

Chief Justice

TRACY CHRISTOPHER
KEN WISE
KEVIN JEWELL
FRANCES BOURLIOT
JERRY ZIMMERER
CHARLES A. SPAIN
MEAGAN HASSAN
MARGARET "MEG" POISSANT

KEM THOMPSON FROST
Clerk

CHRISTOPHER A. PRINE
PHONE 713-274-2800

Fourteenth Court of Appeals
301 Fannin, Suite 245
Houston, Texas 77002

Thursday, January 9, 2020
Jason Travis Bennyhoff
Assistant District Attorney
309th South 4th St.
2nd Floor
Richmond, TX 77469
* DELIVERED VIA E-MAIL *

L. T. "Butch" Bradt
Teltschik & Associates
14090 Southwest Freeway
Suite 300
Sugar Land, TX 77478
* DELIVERED VIA E-MAIL *

John Harrity, III
Assistant District Attorney
Fort Bend County
301 Jackson, Room 101
Richmond, TX 77469
* DELIVERED VIA E-MAIL *
RE:

Court of Appeals Number: 14-17-00958-CR
Trial Court Case Number: 14-DCR-066778

Style: Chiron Sharrol Francis
v.
The State of Texas
Please be advised that on this date the Court DENIED APPELLANT’S motion
for rehearing in the above cause.
Panel Consists of Chief Justice Frost and Justices Spain and Poissant
Sincerely,
/s/ Christopher A. Prine, Clerk
cc:

APPENDIX4

FILE COPY

Justices

Chief Justice

TRACY CHRISTOPHER
KEN WISE
KEVIN JEWELL
FRANCES BOURLIOT
JERRY ZIMMERER
CHARLES A. SPAIN
MEAGAN HASSAN
MARGARET "MEG" POISSANT

KEM THOMPSON FROST
Clerk

CHRISTOPHER A. PRINE
PHONE 713-274-2800

Fourteenth Court of Appeals
301 Fannin, Suite 245
Houston, Texas 77002

Thursday, April 2, 2020
Jason Travis Bennyhoff
Assistant District Attorney
309th South 4th St.
2nd Floor
Richmond, TX 77469
* DELIVERED VIA E-MAIL *

L. T. "Butch" Bradt
Teltschik & Associates
14090 Southwest Freeway
Suite 300
Sugar Land, TX 77478
* DELIVERED VIA E-MAIL *

John Harrity, III
Assistant District Attorney
Fort Bend County
301 Jackson, Room 101
Richmond, TX 77469
* DELIVERED VIA E-MAIL *
RE:

Court of Appeals Number: 14-17-00958-CR
Trial Court Case Number: 14-DCR-066778

Style: Chiron Sharrol Francis
v.
The State of Texas
Please be advised that on this date the court DENIED APPELLANT’S motion
for rehearing en banc in the above cause.
Panel Consists of Chief Justice Frost and Justices Christopher, Wise, Jewell,
Bourliot, Zimmerer, Spain, Hassan and Poissant
Sincerely,
/s/ Christopher A. Prine, Clerk
cc:

APPENDIX5

14-DCR-066778
CONOJV
Conviction - Not Guilty Plea Jury Verdict
5048899

Ill IIIIIIIIIIIIIIIIIIIIIIIIIIIll II

CAUSE NO. 14-DCR-066778
CTI

THE STATE OF TEXAS

vs.

IN THE DISTRICT COURT OF
FORT BEND COUNTY, TEXAS

CHIRON SHARROL FRANCIS

268TH JUDICIAL DISTRICT

JUDGMENT ON JURY VERDICT OF GUilTY
PUNISHMENT FIXED BY JURY - NO PROBATION GRANTED

Judge Presiding: BRADY G. ELLIOTT
Date of Judgment: NOVEMBER 7 2017
Attorney for State: MATTHEW BANISJERAND MARK HANNA
Attorney for Defendant: L T BRADT AND KEYSHA BOOKER
Offense Convicted of: CT I MURDER
Degree: £L_ Date Offense Committed: APRIL 11. 1994
Charging Instrument: INDICTMENT Plea: NOT GUilTY
Jury Verdict: GUilTY Foreman: __R=-=O_;;G;;..;;;E=R-=-V..:..;AZc...=Q=U=E=Z_ _ _ _ _ _ __
Plea to Enhancement Paragraph(s):
NOT APPLICABLE
Findings on Enhancement: _ _.....N___O___T____A__P__P__L=l-=C._A=B=L=E_ _ _ _ _ _ _ __
Findings on Use of Deadly Weapon: ___T__R___U__E_ _ _ __
Date Sentence Imposed: NOVEMBER 7. 2017 Court Costs: $457.50 Fine: $5,000.00
Punishment and Place of Confinement: CT I MURDER: 75 YEARS TEXAS
DEPARTMENT OF CRIMINAL JUSTICE
Time Credited: 1244 DAYS
Date to Commence: NOVEMBER 7, 2017

This 7th day of November, 2017, this cause was called for trial, and the State
appeared by her District Attorney as named above and the Defendant named above,
having been duly arraigned, appeared in person, in open court, his counsel also being
present, and both parties announced ready for trial; thereupon a jury of good and lawful
persons, including the Presiding Juror as named above, and eleven others, was duly
selected, impaneled and sworn, according to law; the indictment was read, and the
defendant entered his plea of not guilty thereto, and evidence for the State and the
Defendant was submitted and concluded, and the Court charged the jury as to the law
applicable to said cause, and argument of counsel for the State and the Defendant was
duly heard and concluded, and the jury retired in charge of the proper officer to consider of
their verdict; and afterward was brought into open court by the proper officer, the
Defendant and his counsel being present, and in due form of law returned into open court
the verdict indicated above, which was received by the Court and is here now entered upon
the minutes of the Court, to-wit: We, the Jury, find the Defendant, CHIRON SHARROL
FRANCIS, guilty of the felony offense of CT I MURDER as charged in the indictment;

715

and was signed by the Presiding Juror.

Thereupon the same jury was duly impaneled to assess said Defendant's
punishment in said cause, and the evidence submitted for the State and for the Defendant
was duly heard, and at the conclusion of such evidence, the Court charged the jury with
additional written instructions as to the punishment in said cause; thereupon the argument
of counsel for the State and the Defendant was duly heard and concluded; and the jury
retired in charge of the proper officer to consider of their verdict as to Defendant's
punishment; and afterward was brought into open court by the proper officer, the
Defendant and his counsel being present, and in due form of law returned into open court
the following verdict, which was received by the Court and is here now entered upon the
minutes of the Court, to-wit: We, the Jury, having found the Defendant guilty of CT I
MURDER as charged in the indictment, now assess the punishment of the defendant at
confinement in the Institutional Division of the Texas Department of Criminal Justice for a
term of 75 YEARS, and was signed by the Presiding Juror.

It is THEREFORE CONSIDERED AND ADJUDGED by the Court that the Defendant
named above is guilty of the offense named above as found by the jury, and that he be
punished as found by the Jury, that is by confinement in the Institutional Division of the
Texas Department of Criminal Justice for the period indicated above and that the State of
Texas do have and recover of the said Defendant all costs in this prosecution, for which
execution may issue.
And thereupon the said Defendant was asked by the Court whether he had anything
to say why sentence should not be pronounced against him, and he answered nothing in
bar thereof. Whereupon the Court proceeded, in the presence of said Defendant, to
pronounce sentence against him as follows, to-wit: "It is the order of the Court that the
Defendant, named above who has been adjudged to be guilty of the offense indicated
above, a felony, and whose punishment has been assessed at confinement in the
Institutional Division of the Texas Department of Criminal Justice for the period indicated
above, be delivered by the Sheriff of Fort Bend County, Texas, immediately to the Director
of the Institutional Division of the State of Texas, or other person legally authorized to
receive such convicts, and said Defendant shall be confined in said Institutional Division for
the period indicated above, in accordance with the provisions of the law governing the
Institutional Division of the Texas Department of Criminal Justice."

716

The said Defendant was remanded to jail until said Sheriff can obey the directions
this sentence.

Signed and entered this

DEFENDANT'S RIGHT INDEX FINGER:

ATTEST:

District Clerk
Fort Bend County, Texas

By: - - - - - - - - - - - - - - Deputy

717

INSTITUTIONAL DIVISION OF THE TEXAS DEPARTMENT
OF
CRIMINAL JUSTICE

STATEMENT OF FACTS

CAUSE NO.: 14-DCR-066778 -CT I
DEFENDANT'S NAME: CHIRON SHARROL FRANCIS
COURT: 268TH DISTRICT COURT, FORT BEND COUNTY, TEXAS
NATURE OF OFFENSE: CT I MURDER
SERIOUSNESS OF OFFENSE:
YES

PHYSICAL VIOLENCE INVOLVED

xx

DEADLY WEAPON INVOLVED

xx

DAMAGE TO PROPERTY INVOLVED

NO

::..;:XX;._:__

DEGREE OF FELONY:

XX

1ST

_ _ 2ND

3RD

CAPITAL

PENAL CODE SECTION UNDER WHICH DEFENDANT WAS CONVICTED:
19.02 (b}{1)

718

l'tJO. 14-DCR-066778
CTI MURDER

THE STATE OF TEXAS

IN THE DISTRICT COURT OF

VS.

FORT BEND COUNTY, TEXAS

CHIRON SHARROL FRANCIS

268TH JUDICIAL DISTRICT

ORDER OF COMMITMENT
On the 7TH day of November, 2017, the above-named defendant was found
guilty of the offense of CT I MURDER and on the 7TH day of November, 2017, was
sentenced to be confined for 75 years in the Texas Department of Criminal Justice,
which sentence is hereby incorporated: for all reasons.
It is therefore ORDERED, ADJUDGED and DECREED by the Court that the
defendant be immediately delivered to·the Director of the Texas Department of Criminal
Justice of Huntsville, Texas, or such other person legally authorized to receive such
person, there to be confined and imprisoned for 75 years, according to the judgment and
sentence of this Court and the defendant is hereby remanded into the custody of the
Sheriff of Fort Bend County, Texas, where said defendant shall remain until said Sheriff
can carry out the order of the C ~

SIGNED this the ~ _ _ _ . __

__._.'--"L,I~,.__,,,__ _

Fl'---~ED

719

14-DCR-066778
ORDER
Order

illlllllll\\11111111

CAUSE NO.14-DCR-066778
CT II

THE STATE OF TEXAS

IN THE DISTRICT COURT OF
FORT BEND COUNTY, TEXAS

VS.
CHIRON SHARROL FRANCIS

268TH JUDICIAL DISTRICT

JUDGMENT ON JURY VERDICT OF GUilTY
PUNISHMENT FIXED BY .JURY - NO PROBATION GRANTED
Judge Presiding: BRADY G. ELLIOTT;
Date of Judgment: NOVEMBER 7. 2017
Attorney for State: MATTHEW BANISTER AND MARK HANNA
Attorney for Defendant: L T BRADT AND KEYSHA BOOKER
Offense Convicted of: CT II MURDER
Date Offense Committed: APRIL 11, 1994
Degree: F1
Charging Instrument: INDICTMENT I Plea: NOT GUilTY
Jury Verdict: GUilTY Foreman:-=-R=O'-"G=E=R-=-V...:.;AZ.a..=.Q=U=EZ=---------NOT APPLICABLE
Plea to Enhancement Paragraph(s): '
...
. . . .L=l-=-C.A=B=LE=---------.P. . P
..
Findings on Enhancement: _ _""""N'-"O. . T+-----A"""'
Findings on Use of Deadly Weapon: _,---'T'"-'-R..a..;U...E________
Date Sentence Imposed: NOVEMBE~ 7, 2017 Court Costs: $457.50 Fine: $5,000.00
Punishment and Place of Confinement: CT II MURDER: 75 YEARS TEXAS
DEPARTMENT OF CRIMINAL JUSTICE
Date to Commence: NOVEMBER 7, 2017
Time Credited: 1244 DAYS

This 7th day of November, 20,17, this cause was called for trial, and the State
appeared by her District Attorney as ,named above and the Defendant named above,
having been duly arraigned, appeared in person, in open court, his counsel also being
present, and both parties announced ready for trial; thereupon a jury of good and lawful
persons, including the Presiding Jurdr as named above, and eleven others, was duly
selected, impaneled and sworn, according to law; the indictment was read, and the
defendant entered his plea of not g~ilty thereto, and evidence for the State and the
Defendant was submitted and concluded, and the Court charged the jury as to the law
applicable to said cause, and argument of counsel for the State and the Defendant was
duly heard and concluded, and the jury retired in charge of the proper officer to consider of
their verdict; and afterward was brqught into open court by the proper officer, the
Defendant and his counsel being pres~nt, and in d_ue form of law returned into open court
the verdict indicated above, which was: received by the Court and is here now entered upon
the minutes of the Court, to-wit: We, the Jury, find the Defendant, CHIRON SHARROL
FRANCIS, guilty of the felony offense of CT II MURDER as charged in the indictment;

720

and was signed by the Presiding Juror.

Thereupon the same jury was duly impaneled to assess said Defendant's
punishment in said cause, and the evidence submitted forthe State and for the Defendant
was duly heard, and at the conclusion of such evidence, the Court charged the jury with
additional written instructions as to the punishment in said cause; thereupon the argument
of counsel for the State and the Defendant was duly heard and concluded; and the jury
retired in charge of the proper officer to consider of their verdict as to Defendant's
punishment; and afterward was brought into open court by the proper officer, the
Defendant and his counsel being present, and in due form of law returned into open court
the following verdict, which was received by the Court and is here now entered upon the
minutes of the Court, to-wit: We, the Jury, having found the Defendant guilty of CT II
MURDER as charged in the indictment, now assess the punishment of the defendant at
confinement in the Institutional Division of the Texas Department of Criminal Justice for a
term of 75 YEARS, and was signed by the Presiding Juror.

It is THEREFORE CONSIDERED AND ADJUDGED by the Court that the Defendant
named above is guilty of the offense named above as found by the jury, and that he be
punished as found by the Jury, that is by confinement in the Institutional Division of the
Texas Department of Criminal Justice for the period indicated above and that the State of
Texas do have and recover of the said Defendant all costs in this prosecution, for which
execution may issue.
And thereupon the said Defendant was asked by the Court whether he had anything
to say why sentence should not be pronounced against him, and he answered nothing in
bar thereof. Whereupon the Court proceeded, in the presence of said Defendant, to
pronounce sentence against him as follows, to-wit: "It is the order of the Court that the
Defendant, named above who has been adjudged to be guilty of the offense indicated
above, a felony, and whose punishment has been assessed at confinement in the
Institutional Division of the Texas Department of Criminal Justice for the period indicated
above, be delivered by the Sheriff of Fort Bend County, Texas, immediately to the Director
of the Institutional Division of the State of Texas, or other person legally authorized to
receive such convicts, and said Defendant shall be confined in said Institutional Division for
the period indicated above, in accordance with the provisions of the law governing the
Institutional Division of the Texas Department of Criminal Justice."

721

The said Defendant was remanded to jail until said Sheriff can obey the directions of
this sentence.

'' _A"'--

v

Signed and entered this

!}_ day of

o.!_7

DEFENDANT'S RIGHT INDEX FINGER:

ATTEST:

District Clerk
Fort Bend County, Texas

By: - - - - - - - - - - . . . . - - - - Deputy

722

INSTITUTIONAL DIVISION OF THE TEXAS DEPARTMENT
OF
CRIMINAL JUSTICE

STATEMENT OF FACTS

CAUSE NO.: 14-DCR-066778 -CT II
DEFENDANT'S NAME: CHIRON SHARROL FRANCIS
COURT: 268TH DISTRICT COURT, FORT BEND COUNTY, TEXAS
NATURE OF OFFENSE: CT II MURDER
SERIOUSNESS OF OFFENSE:
YES

PHYSICAL VIOLENCE INVOLVED

XX

DEADLY WEAPON INVOLVED

XX

DAMAGE TO PROPERTY INVOLVED

NO

=-=)()(=-=--

DEGREE OF FELONY:

XX

1ST

- - 2ND

3RD

CAPITAL

PENAL CODE SECTION UNDER Wt11CH DEFENDANT WAS CONVICTED:
19.02 (b)(1)

723

I
I

NO..14-DCR-066778
Ct II MURDER

THE STATE OF TEXAS

IN THE DISTRICT COURT OF

vs.

FORT BEND COUNTY, TEXAS

CHIRON SHARROL FRANCIS

268TH JUDICIAL DISTRICT

ORDER OF COMMITMENT
On the 7TH day of November, 2017, the above-named defendant was found
guilty of the offense of CT II MURDER and on the 7TH day of November, 2017, was
sentenced to be confined for 75 years in the Texas Department of Criminal Justice,
which sentence is hereby incorporated for all reasons.
It is therefore ORDERED, ADJUDGED and DECREED by the Court that the
defendant be immediately delivered to the Director of the Texas Department of Criminal
Justice of Huntsville, Texas, or such other person legally authorized to receive such
person, there to be confined and imprisoned for 75 years , according to the judgment and
sentence of this Court and the defendant is hereby remanded into the custody of the
Sheriff of Fort Bend County, Texas, where said defendant shall remain until said Sheriff
can carry out the order of the C ~
SIGNED this the ~---------L.C..----

FILED
NOV O9 2017
AT

~S

p~

Clerk ~C::rt~'1t~;X

724

